<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:50 a.m. in Room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Johnson, Collins, Coats, Hoeven, 
and Heitkamp.

   An Assessment on How to Keep Our Railways Safe for Passengers and 
                              Communities

STATEMENT OF HON. ANTHONY FOXX, SECRETARY, DEPARTMENT 
            OF TRANSPORTATION


               opening statement of senator patty murray


    Senator Murray. Good morning. The subcommittee will come to 
order. We are here today to talk about rail safety. Whether a 
railroad is carrying crude oil through towns across America, or 
people are taking a well earned vacation or commuting to work, 
we need to make sure that people are safe, whether on the train 
or near the tracks.
    For our first panel I want to welcome back Secretary Foxx. 
We look forward to hearing what the Department of 
Transportation is doing to ensure the safety of our railroads 
today. And before we go on, I want to just thank you personally 
for the quick release of emergency relief funds for the Oso mud 
slide in my State. The devastation there has been, as everybody 
can imagine, unimaginable. And I know the Department is going 
to be a strong partner as we continue this recovery. And I just 
wanted to personally thank you for that today.
    I also want to welcome Debbie Hersman. She is chairman of 
the National Transportation Safety Board. We had the 
opportunity to work together when the Skagit River Bridge 
collapsed about a year ago. And I really want to thank you for 
all your hard work, and look forward to hearing your thoughts 
on how we can improve rail safety today.
    And I look forward on our second panel, to hear from our 
expert witnesses, Ms. Barb Graff--she's the director of 
Seattle's Emergency Management Office--and Mr. Tim Pellerin--he 
is chief of the Rangeley Fire Department who is with us as 
well. Both have valuable perspectives on the challenges of 
responding to field train accidents. We appreciate your being 
here.
    Rail continues to be one of the safest modes of 
transportation, and 2013 was actually the safest year on 
record. But the increase in domestic energy production is 
changing the industry. With advances in technology, we now have 
access to oil deposits that were unobtainable just a few years 
ago.
    Today, we meet 66 percent of our demand for crude oil with 
domestic production right here in North America. As our energy 
dependency improves--independence improves, the way oil is 
brought to refineries is also changing. Most oil used to be 
imported overseas in ships, but today more and more of it moves 
by rail and pipeline. In my home State of Washington, there was 
virtually no shipment of crude oil by rail as recently as 2011. 
But now due to the expanding drilling of crude oil from the 
Bakken shale in North Dakota and Canada, 17 million barrels of 
oil were shipped across Washington State last year alone.
    And that number will only to continue to grow. Shipments 
are expected to triple to 55 million barrels in this year. And 
with those 55 million barrels of crude oil moving through 
Washington State by rail, that is only the tip of the iceberg. 
There are 10 more refinery expansions and proposals under 
consideration all across Washington State. If approved, those 
proposals would bring millions of barrels of crude oil on rail 
right through communities like Seattle, and Spokane, and 
Bellingham, and Vancouver, and more. If these projects are 
fully realized, they would add 11 train trips per day. It might 
not sound like a lot, but that would amount to $241 million in 
barrels of oil per year coming into Washington State by rail.
    Oil and gas are not the only energy products breaking 
record levels in rail shipments. Since the enactment of the 
renewable fuel standard in 2005, ethanol shipments have 
increased 441 percent. Ethanol is now the most frequently 
shipped hazardous material.
    But the shipment of energy products over rail has safety 
implications. Since July, there have been major rail accidents 
involving crude oil in Quebec, Alabama, and North Dakota. These 
accidents have resulted in lost lives, forced entire towns to 
evacuate, caused over $1.2 billion in property damage, and 
contaminated the environment. As the NTSB (National 
Transportation Safety Board) pointed out in January, our 
current regulations were written long before anybody could 
imagine how much oil would move over rail.
    Federal oversight must adapt to these rapid changes in 
domestic energy production. We need to have the right policies 
in place to prevent accidents and respond to emergencies when 
they do happen. And these policies need to address the safety 
of the entire supply chain from the point of oil production to 
the refinery and during every movement in between.
    For starters, we know that human error and track defects 
account for more than two-thirds of all train accidents. We 
need to improve automated track inspection technology and have 
the right number of track inspectors in the field. This is why 
we included 45 additional safety staff at the Federal Railroad 
Administration in the 2014 transportation spending bill.
    In addition, changes to train car design are long overdue 
and a necessary safety improvement. I cannot emphasize enough 
that we need regulatory certainty on this issue for both new 
builds and the existing fleet. But there are many other 
questions that need to be answered, including are some shale 
oil deposits, like those in the Bakken region, more volatile? 
Are there processes that energy companies can use to make oil 
safer to ship? And are you getting all the information you need 
from industry to make informed decisions on these issues?
    Finally, if an accident does occur, we need to have the 
resources and trained personnel in place to respond. So I want 
to know if the Federal Railroad Administration (FRA) should be 
doing more oversight on oil spill response plans. What is FRA 
doing to ensure State and local emergency response plans are in 
place and sufficient to deal with the realities of this rapidly 
changing industry? The requirements for response plans are more 
robust for pipelines and ships than they are for railroads. 
Should we be looking to develop a consistent level of 
preparedness across all modes of transportation?
    So I look forward to discussing these issues with all of 
our witnesses today. Your feedback will provide us with 
valuable information as we make a decision on the 
administration's budget request for 2015.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    The Subcommittee will come to order. We are here today to discuss 
rail safety. Whether a railroad is carrying crude oil through towns 
across America, or people taking a well-earned vacation or commuting to 
work, we need to make sure people are safe, whether on the train and 
near the tracks.
    For our first panel, I would like to welcome back Secretary Foxx. 
We look forward to hearing what the Department of Transportation is 
doing to ensure the safety of our railroads.
    But first, I want to thank you for the quick release of emergency 
relief funds after the Oso mudslide in Washington State. The 
devastation there has been unimaginable. I know the Department will 
continue to be a strong partner as the community makes its long 
recovery.
    I also want to welcome Debbie Hersman, Chairman of the National 
Transportation Safety Board. We had the opportunity to work together 
during the Skagit River bridge collapse in Washington last year. I 
appreciate your hard work, and I look forward to hearing your thoughts 
on how we can improve rail safety.
    And I look forward to hearing from the expert witnesses on our 
second panel, Ms. Barb Graff, the Director of Seattle's Emergency 
Management Office, and Mr. Tim Pellerin, Chief of the Rangley Fire 
Department. Both have valuable perspectives on the challenges of 
responding to fuel train accidents.
    Rail continues to be one of the safest modes of transportation, and 
2013 was the safest year on record. But the increase in domestic energy 
production is changing the industry.
    With advances in technology, we now have access to oil deposits 
that were unobtainable just a few years ago.
    Today, we meet 66 percent of our demand for crude oil with domestic 
production right here in North America.
    As our energy independence improves, the way oil is brought to 
refineries is also changing. Most oil used to be imported overseas in 
ships, but today more and more of it moves by rail and pipeline.
    In my home State of Washington, there was virtually no shipment of 
crude oil by rail as recently as 2011.
    But now, due to the expanding drilling of crude oil from the Bakken 
shale in North Dakota and Canada, 17 million barrels of oil were 
shipped across Washington State last year alone.
    And that number will only continue to grow: Shipments are expected 
to triple to 55 million barrels in this year.
    And those 55 million barrels of crude oil moving through Washington 
State by rail are only the tip of the iceberg.
    There are ten more refinery expansions and proposals under 
consideration all across Washington State.
    And, if approved, those proposals would bring millions of barrels 
of crude oil on rail right through communities like Seattle, Spokane, 
Bellingham, Vanouver, and many more
    If these projects are fully realized, they would add 11 train trips 
per day. That might not sound like a lot, but it could amount to 241 
million barrels of oil per year coming into Washington State by rail.
    Oil and gas are not the only energy products breaking record levels 
in rail shipments. Since the enactment of the renewable fuel standard 
in 2005, ethanol shipments have increased 441 percent. Ethanol is now 
the most frequently shipped hazardous material.
    But the shipment of energy products over rail has safety 
implications.
    Since July, there have been major rail accidents involving crude 
oil in Quebec, Alabama and North Dakota. These accidents have--resulted 
in lost lives, forced entire towns to evacuate, caused over $1.2 
billion in property damage, and contaminated the environment.
    As the NTSB pointed out in January, our current regulations were 
written long before anybody could imagine how much oil would move over 
rail.
    Federal oversight must adapt to these rapid changes in domestic 
energy production.
    We need to have the right policies in place to prevent accidents 
and respond to emergencies when they do happen. And these policies need 
to address the safety of the entire supply chain, from the point of 
well production to the refinery, and during every movement in between.
    For starters, we know that human error and track defects account 
for more than two-thirds of all train accidents.
    We need to improve automated track inspection technology and have 
the right number of track inspectors in the field.
    This is why we included 45 additional safety staff at the Federal 
Railroad Administration in the 2014 transportation spending bill.
    In addition, changes to tank car design are long-overdue and a 
necessary safety improvement. I cannot emphasize enough that we need 
regulatory certainty on this issue for both new builds and the existing 
fleet.
    But there are many other questions that need to be answered, 
including:
  --Are some shale oil deposits, like those in the Bakken region, more 
        volatile?
  --Are there processes that energy companies can use to make oil safer 
        to ship?
  --And, are you getting all of the information you need from industry 
        to make informed decisions on these issues?
    Finally, if an accident does occur, we need to have the resources 
and trained personnel in place to respond. So I want to know if the 
Federal Railroad Administration should be doing more oversight on oil 
spill response plans? What is FRA doing to ensure State and local 
emergency response plans are in place and sufficient to deal with the 
realities of this rapidly changing industry?
    The requirements for response plans are more robust for pipelines 
and ships than they are for railroads. Should we be looking to develop 
a consistent level of preparedness across all modes of transportation?
    I look forward to discussing these issues with our witnesses today. 
Your feedback will provide us with valuable information as we make 
decisions on the Administration's budget request for 2015.

    Senator Murray. With that, I will turn it over to my 
ranking member, Senator Susan Collins. I really appreciate your 
being here and your work on this.

                 STATEMENT OF SENATOR SUSAN M. COLLINS

    Senator Collins. Thank you very much, Madam Chairman. It is 
good to see you again, Secretary Foxx, and I welcome Chairman 
Hersman for our--before our subcommittee today.
    I also am particularly pleased that we have two witnesses 
from the great States of Maine and Washington. Fire Chief Tim 
Pellerin of Rangeley, Maine, and Barb Graff, Seattle's 
Emergency Management Director, will be testifying on the second 
panel to share with us their unique frontline perspectives in 
responding to incidents involving hazardous materials.
    The horrific derailment that occurred in Lac-Megantic, 
Quebec last year, almost 30 miles from the Maine border, 
brought to light the importance of ensuring the safe 
transportation of energy products. In the early morning hours 
of July 6, a freight train carrying hundreds of thousands of 
gallons of crude oil was sent hurtling toward the small 
picturesque Canadian village. I want to direct everyone's 
attention to the picture on the easel, which illustrates what 
this lovely little town looked like before this horrific 
accident.
    The train derailed in the center of the town, leveling 
several blocks and killing 47 residents. This picture shows the 
devastation that can occur when hazardous materials are not 
safely transported. As you can see, it is an extraordinarily 
huge fire, and you can see the devastation and its aftermath.
    The train--out of this terrible calamity, I was heartened 
to hear the stories of the more than 30 Maine firefighters--the 
chief is one of them who is here with us today--who answered 
their Canadian neighbors' call for help, and rushed to this 
terrible scene. I look forward to hearing from the chief on his 
firsthand experiences in Lac-Megantic, and also to learn from 
him what he would recommend that we do.
    And I also must say how proud I am that the chief presented 
to me today a picture of the fire truck that they brought from 
Rangeley, Maine. And you can see the American flag on it that 
was helping to put out the horrendous fire that was blazing. 
Since the accident, the NTSB has been working with the 
Transportation Safety Board of Canada, and I commend the 
chairman for doing that kind of collaborative investigation.
    While this tragedy hit so very close to home for us in 
Maine, there have been several other derailments of crude oil 
and other hazardous materials recently across the country. 
Despite these incidents, the railroad industry maintains that 
it has upheld a high safety record, and according to the 
Association of American Railroads, more than 99 percent of rail 
HAZMAT shipments reached their destination without a release of 
product. But when you have an incident like this occur, that is 
of little comfort to those who lost their lives and to a town 
that was utterly destroyed.
    Mr. Secretary, when you appeared before this subcommittee 
just weeks ago, I asked you about the administration's proposal 
for a new $40 million fund to support the safe transportation 
of crude oil and other energy products. You explained that the 
Department needs ``the flexibility to be able to distribute 
resources where they are needed, whether it is inspectors, 
research, or testing.''
    You made clear to me that there is no such thing as a 
silver bullet to address the challenges of crude oil 
transportation. This is a complicated, multi-faceted problem 
that requires coordination among several agencies within the 
Department. We must, however, look at three components of 
addressing this important safety issue--prevention, mitigation, 
and response. This includes everything from preventing 
derailments by fixing railroad tracks, minimizing leakage by 
strengthening tank cars, and ensuring that our brave emergency 
responders and firefighters are properly trained and equipped.
    Yet it should not stop there. The Department must work with 
all railroads, class one and short line alike, the oil and gas 
industry, as well as State and local community emergency 
responders to determine a holistic approach to improve safety.
    It is also important to recognize that much of that rail 
network exists in rural America, and that presents unique 
challenges to small communities that often lack the resources 
to effectively respond to hazardous material emergencies. The 
path forward is a complicated one, but it is absolutely 
essential that we pursue it.
    I am encouraged by the progress being made through 
voluntary measures agreed to by the railroad industry and the 
DOT (Department of Transportation) and the cooperation between 
the American and Canadian governments. I look forward to 
hearing from our witnesses today. Thank you, Madam Chairman.
    Senator Murray. Thank you very much. As members know, we 
have a vote at 11:00 and two panels on this committee, so I 
would ask all of the members who have opening statements to 
submit them for the record.
    [The statement follows:]
               Prepared Statement of Senator Tim Johnson
    Thank you, Chairman Murray and Ranking Member Collins, for holding 
this hearing on railway safety. As you know, safe, efficient, and cost-
effective rail transport is critical for the Nation's economy. South 
Dakota depends on rail to move the State's agricultural goods and other 
important products to markets across the country and overseas, 
sustaining jobs and the rural economy. In addition, rail transport 
moves key products into South Dakota to support business and maintain 
the quality of life.
    Since last fall, there have been major problems with rail transport 
in South Dakota, posing serious problems for agriculture and small and 
large businesses in the State. This damages South Dakota's rural 
economy, hampering growers, elevator operators, ethanol producers, 
utilities, and many other businesses that rely on rail to transport 
goods. The inability to consistently move shipments in a timely manner 
severely restricted the ability of farmers to sell grain, ethanol 
producers to ship fuel, and power plants to purchase coal. With the 
abundant harvest last fall and only limited ability to ship, grain 
elevators are full and with the warming weather the ability to 
temporarily store grain is rapidly coming to an end. The rail problems 
have also forced some ethanol producers in the State to cut back on 
production because they have no place to put the product, limiting both 
sales and employee wages.
    It appears that the current rail shipping problems stem from 
several factors, including an overall increase in rail shipping of 
goods due to the improving economy, the brutal weather this past 
winter, the large harvest last fall, and the increase in rail shipping 
of crude oil in our part of the country. All shippers need an even 
playing field from the railroads. We need to take a hard look at how 
they are choosing what loads to move to see whether there is undue 
preference being shown to particular shippers. They should not be 
playing favorites.
    With the seasonality of much of the agricultural production, we 
need to consider how those commodities will fit into the larger rail 
transport network in a sustainable manner in the future, so that 
regular shippers of other products do not limit access during the 
critical post-harvest period. With the growth of renewable fuel 
production, we also need to identify how we can consistently move those 
home-grown products to market efficiently and effectively, especially 
when the plants may not be located in proximity to main lines.
    I understand that BNSF, CP, and the other railroads are working to 
address the problems in their systems. They have indicated that they 
anticipate returning to near normal service in the next couple of 
months. I applaud and look forward to the Surface Transportation Board 
hearing on these issues later this week. I will closely monitor these 
service issues going forward.

    Senator Murray. And we will go directly to the testimony, 
and, Secretary Foxx, we will begin with you.

                 SUMMARY STATEMENT OF HON. ANTHONY FOXX

    Secretary Foxx. Thank you, Chairman Murray and Ranking 
Member Collins, members of the subcommittee, and the panel of 
distinguished witnesses who will follow our panel today.
    Before I begin my remarks, though, let me recognize 
Chairman Hersman, who has done extraordinary work over the past 
10 years at the NTSB in making all forms of transportation 
safer. I know that I speak for many in the group of 
transportation advocates when I say that she will be missed, 
and I wanted to say that to you personally today.
    As all of you know, the oil being produced in North 
Dakota's Bakken region is a big part of the reason that America 
is now the world's largest energy producer. But at DOT, we also 
understand that America cannot just be a world leader in 
producing this energy. We also must be a world leader in safely 
transporting it as well. This is why over the last 8 months the 
U.S. Department of Transportation has taken more than a dozen 
steps to strengthen all the ways that we deliver this oil, by 
truck, by rail, and by pipeline.
    We have issued two emergency orders, two safety advisories, 
and a safety alert in addition to advancing new rail safety and 
tank car regulations. We are also conducting investigations 
through Operation Classification, better known as the Bakken 
Blitz, in order to better understand the characteristics of 
Bakken crude, and to make sure that it is classified correctly.
    I want to thank Senators Hoeven and Heitkamp in particular 
for working with us on this issue. We are also working with 
industry to make sure they do their part as well. In February I 
issued a call to action to the Association of American 
Railroads, and they have responded, agreeing to a series of 
voluntary actions, including speed reductions, increasing 
inspections, using new brake technology, and applying HAZMAT 
routing routes to crude shipments.
    More still needs to be done, and that's why the President's 
$302 billion transportation proposal includes $10 billion over 
4 years for our freight network to help us expand it, to reduce 
bottlenecks, and, of course, to improve safety. In addition to 
all of that, the President's proposal also addresses how we 
ship our energy products head on. It includes a $40 million 
flexible fund to tackle the new and emerging risks associated 
with transporting energy products. The fund would be managed by 
my office to coordinate among other different modes of 
transportations involved, and would be used to support 
research, investigations, and other efforts to improve the safe 
transportation of crude.
    Since my first day as Secretary, since the first day of our 
Department in fact, our top priority has been to ensure that 
safety of America's transportation system. That is what we will 
continue to do, especially with regard to transporting our 
energy.
    I want to thank you again for the opportunity to testify 
today, and I am happy to answer your questions.
    [The statement follows:]
                Prepared Statement of Hon. Anthony Foxx
    Chairman Murray, Ranking Member Collins, and Members of the 
Subcommittee thank you for the opportunity to meet with you today to 
discuss the Department of Transportation's work in ensuring the safe 
transportation of energy products throughout the Nation. This emerging 
issue affects multiple aspects of our transportation network and 
ensuring the safety of that system is my top priority.
    Over the past decade, the United States has successfully expanded 
our domestic energy production. In particular, the crude oil and 
natural gas extracted from the region of North Dakota has yielded 
impressive results and now provides over 900,000 barrels of oil daily. 
As a result, North Dakota is now our second largest oil producing 
State--yielding more than 10 percent of all oil produced in the United 
States. All of this is good news for our economy and good news for our 
energy independence.
    However, at the same time, the increased presence of energy 
products within our borders and the need to transport them to 
refineries and distribution points nationwide have raised emerging 
concerns about our ability to move these products safely through our 
highways, waterways, and rail systems. Today, I want to share with you 
the ongoing efforts within the Department of Transportation to address 
these concerns and to highlight specific initiatives within the fiscal 
year 2015 President's Budget that would support both prevention and 
response efforts in this area.
    The Department of Transportation has been focused on the safe 
transportation of hazardous materials for many years. Because hazardous 
materials are transported by several modes of transportation, the 
Department's prevention and response activities are shared by several 
of our Operating Administrations. The Pipeline and Hazardous Materials 
Safety Administration (PHMSA), Federal Railroad Administration (FRA), 
and Federal Motor Carrier Administration (FMCSA) all play a role in 
ensuring that hazardous materials are transported safety.
    PHMSA provides oversight and guidance to more than 40,000 companies 
involved in the commercial transportation of petroleum products and 
hazardous materials. Each day, about a million different explosive, 
poisonous, corrosive, flammable, and radioactive hazardous materials 
are transported through our transportation corridors--representing as 
much as 6 million tons of hazardous materials. The majority of the 
products under PHMSA's jurisdiction represent oil and natural gas.
    Over the past few years, PHMSA's efforts have focused on two 
fronts: increasing compliance with existing rules and regulations while 
at the same time increasing both industry and public awareness of the 
risks associated with the transportation of oil and other energy 
products by rail. PHMSA's enforcement efforts have yielded significant 
results. In fiscal year 2013 alone, PHMSA conducted 1,655 high risk 
hazardous materials inspections. As a result of these inspections, 
PHMSA opened 224 enforcement cases and issued more than 460 citations 
including some with penalties of nearly $1.6 million.
    At the same time, PHMSA also devotes significant attention to 
educating the industry and the public on hazardous materials safety and 
partners with the States to increase awareness on safety standards and 
practices. To enhance the dialogue between PHMSA and State and industry 
partners, PHMSA established a Joint Safety Advisory Committee to 
address rail safety concerns and to illicit feedback on needed safety 
improvements. These steps are all part of PHMSA's aggressive campaign 
on multiple fronts to mitigate risks and ensure transportation safety.
    We recognize--as is often the case--that comprehensive solutions to 
our difficult transportation issues require a multimodal focus. In the 
case of crude oil and energy products transportation, much of this 
material is moved by trucks and rail or a combination of both as the 
product travels from the oil wells to refineries and distribution 
points. At every stage of the process opportunities exist for safety 
risks that must be mitigated. This is why PHMSA is joined by FRA and 
FMCSA in addressing hazardous material transportation safety concerns.
    For example, FRA has long held the authority to issue Emergency 
Orders as a method for addressing safety concerns on rail. In August of 
2013 FRA worked with PHMSA on an Emergency Order to address the proper 
attending and securing of trains. In February 2014, FRA and PHMSA 
issued another Emergency Order highlighting the importance of proper 
testing and classification of crude oil prior to shipping, and the 
importance of using proper packaging for the specific hazardous 
materials to be transported. The use of these joint orders has been 
very helpful in gaining immediate attention on problem areas.
    In response to recent train accidents involving tank cars carrying 
crude oil, in January oil industry representatives and rail industry 
CEOs met with me and Administrators Quarterman, Szabo, and Ferro in a 
``Call to Action''. At this meeting, the Rail CEOs were asked to 
develop specific plans and recommendations to immediately improve the 
safety of crude oil shipments. I sent a letter to the American 
Association of Railroads (AAR) asking for their help in implementing a 
series of voluntary actions that would improve the safety of railroads 
transporting crude oil and the communities they move through. President 
and CEO Edward Hamberger signed the agreement the same day and support 
from individual railroads followed shortly.
    This ``Call to Action'' resulted in several important changes that 
will go a long way in improving safety and I am pleased that our 
industry partners have joined with us in this critical effort. The AAR 
agreed to:
  --apply hazardous materials routing analysis to trains with 20 or 
        more tank cars loaded with petroleum crude oil, which will help 
        determine the safest and most secure route for the product to 
        travel;
  --adhere to speed restrictions for Key Crude Oil Trains (20 or more 
        tank cars filled with petroleum crude oil) and additional speed 
        restrictions if these trains are traveling in high urban areas;
  --use distributive power locomotives and other solutions to prevent 
        train pile-ups;
  --install wayside defective bearing detectors every 40 miles to 
        prevent equipment-related accidents;
  --work with the railroads to develop a list of emergency response 
        resources along Key Crude Oil train routes that can be provided 
        to emergency responders upon request; and
  --provide $5 million to develop and provide training on safe 
        hazardous material transportation.
    FRA and PHMSA have also been working jointly to conduct ``Operation 
Safe Delivery''. This initiative involves joint activities at all 
transportation phases to investigate how shippers and carriers are 
classifying crude oil and to understand the characteristics of the 
material. Efforts have focused primarily on the Bakken region and 
include spot inspections, data collections, and sampling that help in 
verifying compliance with Federal safety regulations.
    The safe transportation of energy products also includes important 
efforts by FMCSA since trucks play such a pivotal role in the 
transportation of these materials. During 2014, FMCSA partnered with 
the North Dakota Highway Patrol, the Federal Railroad Administration, 
the Pipeline and Hazardous Materials Safety Administration, and the 
Montana Department of Transportation to conduct several multi-agency 
``Strike Force'' Operations. These ``Strike Forces'' help to ensure 
materials are properly classified and motor carriers and drivers are 
operating safely. A ``Strike Force'' operation in February 2014 
produced nine violations.
                            looking forward
    While we are making progress in addressing the new and emerging 
safety risks associated with the safe transportation of energy 
products, we recognize that there is more to be done. This is why the 
President's 2015 Budget includes a request for a new $40 million 
flexible fund to support prevention and response associated with the 
safe transportation of crude oil. Building on our successful 
collaborations among the affected Operating Administrations, this 
funding would be concentrated in one fund and be available to support 
enhanced inspection levels, investigative efforts, research and data 
analysis, and testing in the highest risk areas.
    This fund will be administered by the Department's Chief Financial 
Officer and Assistant Secretary for Budget and Programs who will ensure 
resources are made available to initiatives within the Federal Railroad 
Administration, Pipelines and Hazardous Materials Safety 
Administration, and the Federal Motor Carriers Safety Administration. 
Drawing on their expertise in specific subject areas, the 
Administrators for each Operating Administration, together with the 
Assistant Secretary for Research and designated representatives from 
the offices of the Assistant Secretary for Policy, General Counsel, and 
the Chief Financial Officer, would jointly serve as a decisionmaking 
Board and would be responsible for the effective administration of the 
fund. Eligible projects would be rapidly reviewed and approved by the 
Board before funds are transferred to an Operating Administration for 
implementation. Examples of eligible expenditures of the Safe 
Transportation of Energy Products Fund would include initiatives such 
as the following:
  --Data Driven Safety Interventions--Funding will support the 
        collection and analysis of transportation data on incident, 
        injury, and fatality risks for bulk shipment of flammable 
        liquids by road and rail. This data will be used to define the 
        scope of the problem and to inform efforts/target funding 
        toward the most effective safety interventions. Constituent 
        modes would make proposals to the Board to secure funding for 
        activities that enhance safety or to respond to current 
        incidents. The Board could choose to prioritize multimodal 
        efforts as appropriate.
  --Additional Safety Personnel--At this initial establishment phase, 
        the fund would be used to support additional personnel divided 
        between FRA and PHMSA for safety inspection and enforcement 
        personnel to provide the backbone of the multimodal effort for 
        this first year. These resources will conduct inspections, 
        investigations and testing for issues such as tank car 
        performance, commodity classification, and root cause analysis 
        of train derailments.
  --Training and Outreach Efforts--to improve oil spill emergency 
        response and community preparedness.
  --Robust Regulatory Development--to focus on the implementation of 
        comprehensive regulatory actions that would provide the 
        industry with a combination of performance metrics and 
        operating standards that will result in enhanced safety 
        practices, more effective rail operations, and improved tank 
        car survivability.
  --Economic Analysis--to identify and evaluate costs associated with 
        current system-wide risks of bulk shipments by rail as well as 
        analyses of future system needs.
  --NTSB Recommendations--Funds would also be used to address 
        outstanding and anticipated NTSB recommendations.
    The need for this initiative is especially important because the 
U.S. is now the global leader in crude oil production capacity growth, 
and because we expect this trend to continue for the foreseeable 
future.
                               conclusion
    As our domestic energy production efforts continue to expand, the 
Department of Transportation will draw on its long history of 
addressing the safe transportation of hazardous materials and use 
lessons learned to enhance our efforts in this new emerging area. We 
will also continue to explore new methods and strategies for ensuring 
these energy products are moved safely through our cities, towns and 
neighborhoods. We will continue working with our State and industry 
partners, to develop practical and workable changes that enhance safety 
and efficiency, ensuring that we maintain an open dialogue with the 
public to ensure their concerns are promptly addressed.
    Thank you again for the opportunity to meet with you today. I look 
forward to working with all of you.

    Senator Murray. Thank you. Chairman Hersman.
STATEMENT OF HON. DEBORAH A.P. HERSMAN, CHAIRMAN, 
            NATIONAL TRANSPORTATION SAFETY BOARD, 
            DEPARTMENT OF TRANSPORTATION
    Ms. Hersman. Good morning, Chairman Murray, Ranking Member 
Collins, and members of the committee, and also the guests who 
are here. As Chairman Murray outlined in her opening statement, 
in the last decade we have seen a tremendous change in the 
types of commodities that are transported by rail.
    As you all know, crude oil carloads have increased by over 
400 percent since 2005. However, the safety regime did not 
prepare in advance, nor have they responded quickly enough to 
address the risks associated with moving unit trains of 
flammable liquids. Recent accidents illustrate that 
vulnerabilities still exist for communities situated along the 
rights-of-way, and risks remain unaddressed.
    Ranking Member Collins described to a great degree the 
outcome of the accident in Lac-Megantic. Forty-seven people 
were killed, and a town center was destroyed. The 
Transportation Safety Board of Canada is leading this accident 
investigation, but the NTSB is providing technical and 
personnel support to their work.
    And, Senator Heitkamp, you know very well within our own 
borders we experienced an accident on December 30. Just a half 
mile from the town center of Castleton, North Dakota, 20 cars 
on a BNSF crude oil train derailed, spilling about a half a 
million gallons of oil and igniting a fire that burned for more 
than 24 hours, resulting in the evacuation of 1,400 people.
    In January, we issued joint recommendations with TSB Canada 
addressing classification of hazardous materials, route 
planning for hazardous liquid unit trains, and developing worst 
case scenario response plans. These common sense improvements 
are needed now. And I do want to recognize the work that 
Secretary Foxx and his team have dedicated to achieving 
voluntary commitments to make some of these improvements.
    The NTSB has called for improvements to tank car design for 
decades. In 1991, we issued a report that reviewed 45 tank car 
accidents in places like Pasco, Washington, Easley, South 
Carolina, and Wilmington, California. And more recently, we 
also issued recommendations to PHMSA after a 2009 fatal ethanol 
unit train accident in Illinois. We called for improvements to 
the tank car design to prevent or mitigate a failure.
    The NTSB has also called for better information to first 
responders when there is an accident. They are the ones who run 
towards the disaster when everyone else is running away, yet 
too often they must respond without critical safety 
information. First responders must have accurate and real time 
information about what is carried on the train. We called for 
this in 2007 following an accident in Anding, Mississippi, and 
much of this information can be electronically transferred 
directly to responders in the field.
    Later this month, we will hold a 2-day forum focusing on 
transport of hazardous liquids by rail, and you are exactly 
right, Senator Collins--it is all about prevention, mitigation, 
and response. We have to do all three of these things better.
    I would also like to provide a brief overview of some of 
our recent rail passenger accident investigations. We are now 
investigating five separate accidents on Metro North's 
properties. They have involved six fatalities and 135 injuries. 
We have issued several recommendations already to Metro North 
and to the FRA as a result of these investigations. And most 
recently, we determined that the engineer at the controls of 
the fatal accident that occurred in December suffered from 
undiagnosed sleep apnea. This serious medical condition can 
result in excessive daytime sleepiness, fatigue, and a lack of 
awareness. This is not the first time that we have identified 
sleep apnea as a factor in transportation accidents, and we 
have recommended that all modes at DOT take this issue 
seriously.
    We continue to investigate a number of accidents all around 
the country--CTA in Chicago, BART in San Francisco. I look 
forward to answering any questions that you might have.
    If I could ask the committee to indulge me. I have 
testified about two dozen times before Congress, and as all of 
you know, it is the people who sit behind us who do a 
tremendous amount of work to get us to where we are today. I 
would like to recognize the staff of the NTSB. Jane Terry and 
Rob Hall are sitting behind me today, but for 10 years there 
have been people who have sat behind me, helped me prepare to 
talk to people like you, and made sure that the NTSB was well 
represented. And so, I thank them.
    And I wish Secretary Foxx all the best in continuing to 
fight the good fight for transportation safety. Thank you very 
much.
    [The statement follows:]
            Prepared Statement of Hon. Deborah A.P. Hersman
    Good afternoon, Chairman Murray, Ranking Member Collins, and 
members of the subcommittee. Thank you for the opportunity to appear 
before you on behalf of the National Transportation Safety Board (NTSB) 
and to update you on our ongoing work to improve railroad safety by 
investigating railroad accidents and issuing safety recommendations. 
Our Nation's economy depends on a safe, reliable rail transportation 
system, and the American public expects and deserves nothing less. 
Recent railroad accidents under active investigation, including fatal 
accidents, remind us of the clear imperative to stay vigilant and stand 
ready to make improvements to the safety of railroad transportation. 
Our Nation's railroad systems are generally safe, but evolving demands 
on these systems mean evolving safety challenges, and much work is 
ahead in our shared mission of making our Nation's railroad systems as 
safe as they can be.
    Recent events have placed railroad safety at the forefront of the 
national conversation. Last May, in Bridgeport, Connecticut, 76 people 
were injured when a Metro-North Railroad (Metro-North) commuter train 
derailed, fouled the adjacent track, and was struck by a train 
approaching on that adjacent track. Just over 1 week later, a Metro-
North track foreman was struck by a train and killed in West Haven, 
Connecticut. In July, a CSX train operating on Metro-North tracks 
derailed in The Bronx, New York. On December 1, 4 people lost their 
lives and 59 others were injured when a Metro-North commuter train 
derailed in The Bronx after entering a curve with a 30-mile-per-hour 
(mph) speed limit at 82 mph. One month later, 2014 dawned with a team 
of NTSB investigators working the scene of a serious railroad accident 
near Casselton, North Dakota, where 20 cars of a 106-car BNSF Railway 
(BSNF) petroleum crude oil unit train ignited after colliding with cars 
from a derailed BNSF grain train.\1\ More than 476,000 gallons of crude 
oil were released in the accident, and the massive fire triggered a 
voluntary evacuation of 1,400 people from the surrounding area and 
resulted in millions of dollars in damage. Last month on March 10, a 
Metro-North third rail electrician lost his life when struck by a 
Metro-North train in Manhattan, New York. And most recently, a team of 
NTSB investigators responded to a Chicago Transit Authority (CTA) train 
derailment inside the O'Hare International Airport station on March 24 
in which 32 people were injured. Early information suggests fatigue may 
have played a role in the accident.
---------------------------------------------------------------------------
    \1\ A unit train is a train made up of cars carrying the same 
product.
---------------------------------------------------------------------------
    Our investigations into these accidents continue, and the second 
portion of this written testimony will update the subcommittee on what 
we have learned so far. At any time however, the NTSB may issue safety 
recommendations in its investigations. In our investigation of the 
Casselton accident, on April 7, we issued a safety recommendation to 
the Association of American Railroads (AAR) calling for improved 
nondestructive testing of rolling-stock axles to detect manufacturing 
material defects before they lead to accidents. On February 18, we 
issued three safety recommendations to Metro-North to install signs to 
clearly warn train crews that they are approaching areas of permanent 
speed restrictions and to install and review inward- and outward-facing 
audio and video recorders in locomotives and control cars, which is a 
longstanding NTSB recommendation to the Federal Railroad Administration 
(FRA) that remains open.
                         current safety issues
    First, I would like to offer NTSB perspectives on current safety 
issues that the FRA and others, as appropriate, should expeditiously 
address. These recommendations reflect the fact that improving rail 
safety requires a layered approach: prevent accidents, mitigate those 
we cannot prevent, and ensure that emergency responders are well-
equipped and well-trained to handle the accidents when they occur.
    The NTSB has issued 106 recommendations to FRA since 2000 to 
improve railroad safety. Of those 106 recommendations, 55 remain open, 
and, of those 55 open recommendations, 29 remain open with unacceptable 
FRA responses. The percentage of open recommendations that have 
unacceptable responses is higher for the FRA than for any other 
Department of Transportation (DOT) modal agency or the U.S. Coast 
Guard. An appendix listing our open recommendations to FRA follows. We 
understand that the FRA's congressionally-mandated rulemaking projects 
occupy, as they should, a substantial portion of the agency's 
rulemaking resources. At the same time, however, the FRA's 
implementation of open NTSB recommendations--recommendations to reduce 
fatigue among train engineers,\2\ to implement positive train control 
(PTC), to require better maintenance, and to make other safety 
improvements--will save lives. The FRA should develop and publish a 
plan for implementing open NTSB recommendations without further delay.
---------------------------------------------------------------------------
    \2\ NTSB Recommendations Nos. R-12-017, and R-13-020 and -021.

                             RECOMMENDATIONS
------------------------------------------------------------------------
 Recommendation   Overall     Date
      No.          status    closed                Subject
------------------------------------------------------------------------
       R-00-001 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Establish, with
                                    assistance from experts on the
                                    effects of pharmacological agents
                                    on human performance and
                                    alertness, procedures or criteria
                                    by which train operating
                                    crewmembers who medically require
                                    substances not on the U.S. Dept.
                                    of Transportation's list of
                                    approved medications may be
                                    allowed, when appropriate, to use
                                    those medications when performing
                                    their duties.
       R-00-002 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Develop, then
                                    periodically publish, an easy-to-
                                    understand source of information
                                    for train operating crewmembers on
                                    the hazards of using specific
                                    medications when performing their
                                    duties.
       R-00-003 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Establish and
                                    implement an educational program
                                    targeting train operating
                                    crewmembers that, at a minimum,
                                    ensures that all crewmembers are
                                    aware of the source of information
                                    described in R-00-2 regarding the
                                    hazards of using specific
                                    medications when performing their
                                    duties.
       R-00-004 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Establish, in
                                    coordination with the U.S. Dept.
                                    of Transportation, the Federal
                                    Motor Carrier Safety
                                    Administration, the Federal
                                    Transit Administration, and the
                                    U.S. Coast Guard, comprehensive
                                    toxicological testing requirements
                                    for an appropriate sample of fatal
                                    highway, railroad, transit, and
                                    marine accidents to ensure the
                                    identification of the role played
                                    by common prescription and over-
                                    the-counter medications. Review
                                    and analyze the results of such
                                    testing at intervals not to exceed
                                    every 5 years.
       R-01-002 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Evaluate, with the
                                    assistance of the Research and
                                    Special Programs Administration,
                                    the Association of American
                                    Railroads, and the Railway
                                    Progress Institute, the
                                    deterioration of pressure relief
                                    devices through normal service and
                                    then develop inspection criteria
                                    to ensure that the pressure relief
                                    devices remain functional between
                                    regular inspection intervals.
                                    Incorporate these inspection
                                    criteria into the U.S. Dept. of
                                    Transportation hazardous materials
                                    regulations.
       R-01-017 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Modify 49 Code of
                                    Federal Regulations 219.250(b) as
                                    necessary to ensure that the
                                    exemption from mandatory
                                    postaccident drug and alcohol
                                    testing for those involved in
                                    highway-rail grade crossing
                                    accidents does not apply to any
                                    railroad signal, maintenance, and
                                    other employees whose actions at
                                    or near a grade crossing involved
                                    in an accident may have
                                    contributed to the occurrence or
                                    severity of the accident.
       R-02-005 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require railroads
                                    to conduct ultrasonic or other
                                    appropriate inspections to ensure
                                    that rail used to replace
                                    defective segments of existing
                                    rail is free from internal
                                    defects.
       R-04-001 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require all
                                    railroads with continuous welded
                                    rail track to include procedures
                                    (in the programs that are filed
                                    with the Federal Railroad
                                    Administration) that prescribe on-
                                    the-ground visual inspections and
                                    nondestructive testing techniques
                                    for identifying cracks in rail
                                    joint bars before they grow to
                                    critical size.
       R-04-007 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Develop and
                                    implement tank car design-specific
                                    fracture toughness standards, such
                                    as a minimum average Charpy value,
                                    for steels and other materials of
                                    construction for pressure tank
                                    cars used for the transportation
                                    of U.S. Department of
                                    Transportation class 2 hazardous
                                    materials, including those in
                                    ``low temperature'' service. The
                                    performance criteria must apply to
                                    the material orientation with the
                                    minimum impact resistance and take
                                    into account the entire range of
                                    operating temperatures of the tank
                                    car.
       R-05-009 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Develop guidelines
                                    for locomotive engineer simulator
                                    training programs that go beyond
                                    developing basic skills and teach
                                    strategies for effectively
                                    managing multiple concurrent tasks
                                    and atypical situations.
       R-05-017 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Determine the most
                                    effective methods of providing
                                    emergency escape breathing
                                    apparatus for all crewmembers on
                                    freight trains carrying hazardous
                                    materials that would pose an
                                    inhalation hazard in the event of
                                    unintentional release, and then
                                    require railroads to provide these
                                    breathing apparatus to their
                                    crewmembers along with appropriate
                                    training.
       R-06-007 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require railroads
                                    to implement for all power-
                                    assisted switch machines,
                                    regardless of location, a formal
                                    commissioning procedure and a
                                    formal maintenance program that
                                    includes records of inspections,
                                    tests, maintenance, and repairs.
       R-07-002 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Assist the
                                    Pipeline and Hazardous Materials
                                    Safety Administration in
                                    developing regulations to require
                                    that railroads immediately provide
                                    to emergency responders accurate,
                                    real-time information regarding
                                    the identity and location of all
                                    hazardous materials on a train.
       R-08-005 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Advise railroads
                                    of the need to examine their train
                                    dispatching systems and procedures
                                    to ensure that appropriate safety
                                    redundancies are in place for
                                    establishing protection and
                                    preventing undesired removal of
                                    protection for roadway workers
                                    receiving track occupancy
                                    authority.
       R-08-006 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require redundant
                                    signal protection, such as
                                    shunting, for maintenance-of-way
                                    work crews who depend on the train
                                    dispatcher to provide signal
                                    protection.
       R-08-007 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Revise the
                                    definition of covered employee
                                    under 49 Code of Federal
                                    Regulations part 219 for purposes
                                    of congressionally mandated
                                    alcohol and controlled substances
                                    testing programs to encompass all
                                    employees and agents performing
                                    safety-sensitive functions, as
                                    described in 49 Code of Federal
                                    Regulations 209.301 and 209.303.
       R-08-009 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Review all
                                    railroads' internal rail defect
                                    detection procedures and require
                                    changes to those procedures as
                                    necessary to eliminate exceptions
                                    to the requirement for an
                                    uninterrupted, continuous search
                                    for rail defects.
       R-08-010 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require railroads
                                    to develop rail inspection and
                                    maintenance programs based on
                                    damage-tolerance principles, and
                                    approve those programs. Include in
                                    the requirement that railroads
                                    demonstrate how their programs
                                    will identify and remove internal
                                    defects before they reach critical
                                    size and result in catastrophic
                                    rail failures. Each program should
                                    take into account, at a minimum,
                                    accumulated tonnage, track
                                    geometry, rail surface conditions,
                                    rail head wear, rail steel
                                    specifications, track support,
                                    residual stresses in the rail,
                                    rail defect growth rates, and
                                    temperature differentials.
       R-08-011 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require that
                                    railroads use methods that
                                    accurately measure rail head wear
                                    to ensure that deformation of the
                                    head does not affect the accuracy
                                    of the measurements.
       R-08-012 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Assist the
                                    Pipeline and Hazardous Materials
                                    Safety Administration in its
                                    evaluation of the risks posed to
                                    train crews by unit trains
                                    transporting hazardous materials,
                                    determination of the optimum
                                    separation requirements between
                                    occupied locomotives and hazardous
                                    materials cars, and any resulting
                                    revision of 49 Code of Federal
                                    Regulations 174.85.
       R-09-001 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Establish uniform
                                    signal aspects that railroads must
                                    use to authorize a train to enter
                                    an occupied block, and prohibit
                                    the use of these aspects for any
                                    other signal indication.
       R-09-002 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Study the
                                    different signal systems for
                                    trains, identify ways to
                                    communicate more uniformly the
                                    meaning of signal aspects across
                                    all railroad territories, and
                                    require the railroads to implement
                                    as many uniform signal meanings as
                                    possible.
       R-09-003 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require that
                                    emergency exits on new and
                                    remanufactured locomotive cabs
                                    provide for rapid egress by cab
                                    occupants and rapid entry by
                                    emergency responders.
       R-10-001 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require the
                                    installation, in all controlling
                                    locomotive cabs and cab car
                                    operating compartments, of crash-
                                    and fire-protected inward- and
                                    outward-facing audio and image
                                    recorders capable of providing
                                    recordings to verify that train
                                    crew actions are in accordance
                                    with rules and procedures that are
                                    essential to safety as well as
                                    train operating conditions. The
                                    devices should have a minimum 12-
                                    hour continuous recording
                                    capability with recordings that
                                    are easily accessible for review,
                                    with appropriate limitations on
                                    public release, for the
                                    investigation of accidents or for
                                    use by management in carrying out
                                    efficiency testing and systemwide
                                    performance monitoring programs.
       R-10-002 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require that
                                    railroads regularly review and use
                                    in-cab audio and image recordings
                                    (with appropriate limitations on
                                    public release), in conjunction
                                    with other performance data, to
                                    verify that train crew actions are
                                    in accordance with rules and
                                    procedures that are essential to
                                    safety.
       R-12-003 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require that
                                    safety management systems and the
                                    associated key principles
                                    (including top-down ownership and
                                    policies, analysis of operational
                                    incidents and accidents, hazard
                                    identification and risk
                                    management, prevention and
                                    mitigation programs, and
                                    continuous evaluation and
                                    improvement programs) be
                                    incorporated into railroads' risk
                                    reduction programs required by
                                    Public Law 110-432, Rail Safety
                                    Improvement Act of 2008, enacted
                                    October 16, 2008.
       R-12-016 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require railroads
                                    to medically screen employees in
                                    safety-sensitive positions for
                                    sleep apnea and other sleep
                                    disorders.
       R-12-017 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Establish an
                                    ongoing program to monitor,
                                    evaluate, report on, and
                                    continuously improve fatigue
                                    management systems implemented by
                                    operating railroads to identify,
                                    mitigate, and continuously reduce
                                    fatigue-related risks for
                                    personnel performing safety-
                                    critical tasks, with particular
                                    emphasis on biomathematical models
                                    of fatigue.
       R-12-018 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Conduct research
                                    on new and existing methods that
                                    can identify fatigue and mitigate
                                    performance decrements associated
                                    with fatigue in on-duty train
                                    crews.
       R-12-019 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require the
                                    implementation of methods that can
                                    identify fatigue and mitigate
                                    performance decrements associated
                                    with fatigue in on-duty train
                                    crews that are identified or
                                    developed in response to Safety
                                    Recommendation R-12-18.
       R-12-020 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require the use of
                                    positive train control
                                    technologies that will detect the
                                    rear of trains and prevent rear-
                                    end collisions.
       R-12-021 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Revise title 49
                                    Code of Federal Regulations part
                                    229 to ensure the protection of
                                    the occupants of isolated
                                    locomotive operating cabs in the
                                    event of a collision. Make the
                                    revision applicable to all
                                    locomotives, including the
                                    existing fleet and those newly
                                    constructed, rebuilt, refurbished,
                                    and overhauled, unless the cab
                                    will never be occupied.
       R-12-022 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Revise title 49
                                    Code of Federal Regulations part
                                    229 to require crashworthiness
                                    performance validation for all new
                                    locomotive designs under
                                    conditions expected in a
                                    collision.
       R-12-027 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require railroads
                                    to install, along main lines in
                                    non-signaled territory not
                                    equipped with positive train
                                    control, appropriate technology
                                    that warns approaching trains of
                                    incorrectly lined main track
                                    switches sufficiently in advance
                                    to permit stopping.
       R-12-037 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Audit the waiver
                                    process to verify it is being
                                    managed as required by title 49
                                    Code of Federal Regulations part
                                    211.
       R-12-038 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Audit the
                                    inspection and enforcement program
                                    in all regions for compliance with
                                    statutes and regulations related
                                    to railroad safety, and correct
                                    any deficiencies as required by
                                    title 49 Code of Federal
                                    Regulations part 209.
       R-12-039 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Develop side
                                    impact crashworthiness standards
                                    (including performance validation)
                                    for passenger railcars that
                                    provide a measurable improvement
                                    compared to the current regulation
                                    for minimizing encroachment to and
                                    loss of railcar occupant survival
                                    space.
       R-12-040 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Once the side
                                    impact crashworthiness standards
                                    are developed in Safety
                                    Recommendation R-12-39, revise 49
                                    Code of Federal Regulations
                                    238.217, ``Side Structure,'' to
                                    require that new passenger
                                    railcars be built to these
                                    standards.
       R-12-041 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require that
                                    passenger railcar doors be
                                    designed to prevent fire and smoke
                                    from traveling between railcars.
       R-12-042 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Work with the
                                    Federal Highway Administration to
                                    develop a model grade crossing
                                    action plan that can be used as a
                                    resource document by all States.
                                    At a minimum, such a document
                                    should incorporate information
                                    from U.S. Department of
                                    Transportation publications,
                                    industry studies, and the American
                                    Association of State Highway and
                                    Transportation Officials, as well
                                    as the best practices and lessons
                                    learned at the conclusion of the 5-
                                    year grade crossing action plans
                                    developed in response to 49 Code
                                    of Federal Regulations 234.11,
                                    ``State Highway-Rail Grade
                                    Crossing Action Plans.''
       R-12-043 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Work with the
                                    Federal Highway Administration to
                                    update its website on annual
                                    reporting requirements for railway-
                                    highway crossings, to include
                                    comprehensive information on the
                                    individual grade crossing action
                                    plans developed by the States
                                    pursuant to 49 Code of Federal
                                    Regulations 234.11, ``State
                                    Highway-Rail Grade Crossing Action
                                    Plans.''
       R-13-005 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Identify, and
                                    require railroads to use in
                                    locomotive cabs, technology-based
                                    solutions that detect the presence
                                    of signal-emitting portable
                                    electronic devices and that inform
                                    the railroad management about the
                                    detected devices in real time.
       R-13-006 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Incorporate the
                                    use of handheld signal detection
                                    devices to aid in the enforcement
                                    of title 49 Code of Federal
                                    Regulations part 220 subpart C.
       R-13-007 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require railroads
                                    to implement initial and recurrent
                                    crew resource management training
                                    for train crews.
       R-13-008 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Conduct an audit
                                    of the Canadian National Railway's
                                    North Division program of
                                    operational tests and inspections
                                    to evaluate their effectiveness
                                    for promoting knowledge and
                                    compliance with rules regarding
                                    the execution of track authorities
                                    and the appropriate use of
                                    portable electronic devices.
       R-13-018 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Determine what
                                    constitutes a reliable, valid, and
                                    comparable field test procedure
                                    for assessing the color
                                    discrimination capabilities of
                                    employees in safety-sensitive
                                    positions.
       R-13-019 OAA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: When you have made
                                    the determination in Safety
                                    Recommendation R-13-18, require
                                    railroads to use a reliable,
                                    valid, and comparable field test
                                    procedure for assessing the color
                                    discrimination capabilities of
                                    employees in safety-sensitive
                                    positions.
       R-13-020 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require more
                                    frequent medical certification
                                    exams for employees in safety-
                                    sensitive positions who have
                                    chronic conditions with the
                                    potential to deteriorate
                                    sufficiently to impair safe job
                                    performance.
       R-13-021 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Develop medical
                                    certification regulations for
                                    employees in safety-sensitive
                                    positions that include, at a
                                    minimum, (1) a complete medical
                                    history that includes specific
                                    screening for sleep disorders, a
                                    review of current medications, and
                                    a thorough physical examination,
                                    (2) standardization of testing
                                    protocols across the industry, and
                                    (3) centralized oversight of
                                    certification decisions for
                                    employees who fail initial
                                    testing; and consider requiring
                                    that medical examinations be
                                    performed by those with specific
                                    training and certification in
                                    evaluating medication use and
                                    health issues related to
                                    occupational safety on railroads.
                                    [This recommendation supersedes
                                    Safety Recommendations R-02-24
                                    through -26.]
       R-13-022 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Require all
                                    information captured by any
                                    required recorder to also be
                                    recorded in another location
                                    remote from the lead
                                    locomotive(s), to minimize the
                                    likelihood of the information's
                                    being unrecoverable as a result of
                                    an accident.
       R-13-023 OUA       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Publish the
                                    positive train control
                                    implementation update reports
                                    submitted by all railroads subject
                                    to the positive train control
                                    provisions of the Rail Safety
                                    Improvement Act of 2008 and make
                                    the reports available on your
                                    website within 30 days of report
                                    receipt.
       R-13-038 OAR       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Work with the
                                    Federal Highway Administration to
                                    (1) include guidance in the Manual
                                    on Uniform Traffic Control Devices
                                    (MUTCD) for the installation of
                                    advance warning devices, such as
                                    movement-activated blank-out
                                    signs, that specifically use the
                                    word ``train'' to indicate the
                                    preemption of highway traffic
                                    signals by an approaching train,
                                    and (2) amend the MUTCD to
                                    indicate that preemption
                                    confirmation lights, while not
                                    intended to provide guidance to
                                    the general public, would be
                                    useful in providing advance
                                    information on train movements to
                                    law enforcement and emergency
                                    responders.
       R-14-001 OAR       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Work with the
                                    Pipeline and Hazardous Materials
                                    Safety Administration to expand
                                    hazardous materials route planning
                                    and selection requirements for
                                    railroads under title 49 Code of
                                    Federal Regulations 172.820 to
                                    include key trains transporting
                                    flammable liquids as defined by
                                    the Association of American
                                    Railroads Circular No. OT-55-N
                                    and, where technically feasible,
                                    require rerouting to avoid
                                    transportation of such hazardous
                                    materials through populated and
                                    other sensitive areas.
       R-14-002 OAR       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Develop a program
                                    to audit response plans for rail
                                    carriers of petroleum products to
                                    ensure that adequate provisions
                                    are in place to respond to and
                                    remove a worst-case discharge to
                                    the maximum extent practicable and
                                    to mitigate or prevent a
                                    substantial threat of a worst-case
                                    discharge.
       R-14-003 OAR       .......  TO THE FEDERAL RAILROAD
                                    ADMINISTRATION: Audit shippers and
                                    rail carriers of crude oil to
                                    ensure they are using appropriate
                                    hazardous materials shipping
                                    classifications, have developed
                                    transportation safety and security
                                    plans, and have made adequate
                                    provision for safety and security.
------------------------------------------------------------------------

    I would like to provide further context on several specific NTSB 
recommendations issued to the FRA and other stakeholders, and safety 
issues that particularly relate to recurring accidents.
Untreated Sleep Disorders Among Locomotive Engineers
    Several NTSB investigations since 2001 have revealed a safety risk 
that the FRA has not, to date, fully addressed: train crewmember 
fatigue due to untreated or insufficiently treated obstructive sleep 
apnea. Impairment from fatigue caused by obstructive sleep apnea caused 
at least two fatal accidents in the past: Clarkston, Michigan, in 2001, 
and Red Oak, Iowa, in 2011. Also, we have recently learned that the 
engineer involved in the December 1 Metro-North accident suffered from 
obstructive sleep apnea at the time of the accident. Fatigue resulting 
from undiagnosed obstructive sleep apnea among train engineers 
continues to pose a clear safety risk that FRA must address.
    For more than a decade, the NTSB has recommended that FRA take 
appropriate measures to ensure that train crewmembers receive prompt 
diagnoses and treatment for fatigue-inducing conditions, such as sleep 
apnea. The NTSB's first recommendations on the subject emerged from an 
investigation of the 2001 collision of two trains near Clarkston, 
Michigan, in which two train crewmembers died and two others were 
seriously injured.\3\ The NTSB determined that the probable cause of 
the accident was that the two crew members were sleepy due to fatigue 
most likely resulting from obstructive sleep apnea, and recommended 
that the FRA consider sleep problems when assessing the medical fitness 
of engineers and that the FRA require that incapacitating or impairing 
medical conditions be reported to rail carriers.\4\
---------------------------------------------------------------------------
    \3\ NTSB, Collision of Two Canadian National/Illinois Central 
Railway Trains Near Clarkston, Michigan, November 15, 2001, Rpt. No. 
NTSB/RAR-02/04 (Nov. 19, 2002); see NTSB Recommendation Nos. R-02-24 to 
R-02-26.
    \4\ NTSB Recommendation Nos. R-02-24, -25.
---------------------------------------------------------------------------
    Moreover, in its investigation of a 2011 freight train collision in 
Red Oak, Iowa, that killed two crewmembers,\5\ the NTSB recommended 
that the FRA ``[r]equire railroads to medically screen employees in 
safety-sensitive positions for sleep apnea and other sleep disorders'' 
and that the BNSF, the rail carrier involved in the accident, 
``[m]edically screen employees in safety-sensitive positions for sleep 
apnea and other sleep disorders.'' \6\ These recommendations remain 
open.
---------------------------------------------------------------------------
    \5\ NTSB, Collision of BNSF Coal Train With the Rear End of 
Standing BNSF Maintenance-of-Way Equipment Train, Red Oak, Iowa, April 
17, 2011, Rpt. No. NTSB/RAR-12/02 (April 24, 2012).
    \6\ NTSB Recommendation Nos. 12-16, 12-26.
---------------------------------------------------------------------------
    Fatigue has been raised as a potential issue in current 
investigations as well. As the NTSB vigorously investigates these 
accidents, we continue to call on the FRA to take strong action to 
ensure operating personnel are assessed for fitness with reference to 
appropriate medical standards that consider sleep disorders. 
Crewmembers with sleep disorders must receive proper medical treatment 
to protect against the adverse effects of fatigue in railroad 
operations.
Railroad Tank Car Design
    The Nation's railroad network is taking on an expanding role--one 
that has profound economic importance--as a major channel for the 
transportation of crude oil and other hazardous products. As the NTSB 
noted recently, the Association of American Railroads' (AAR's) 2012 
Annual Report of Hazardous Materials Transported by Rail states that 
crude oil traffic has increased by 443 percent since 2005 and that this 
growth is expected to continue for the foreseeable future. According to 
the FRA, the volume of crude oil transported by rail has increased 
dramatically in recent years, from approximately 65,600 carloads in 
2011 to approximately 257,450 carloads in 2012--an increase of 292 
percent.\7\ Moreover, not only is more crude oil being transported by 
rail, but some of the crude oil being moved on the Nation's railroad 
system--such as that originating in the Bakken formation--may have more 
volatile properties. In January, the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) issued a safety alert advising ``the 
general public, emergency responders and shippers and carriers that . . 
. the type of crude oil being transported from the Bakken region may be 
more flammable than traditional heavy crude oil,'' with the results of 
further tests of Bakken crude oil forthcoming.\8\
---------------------------------------------------------------------------
    \7\ FRA Emerg. Order No. 28, 78 Fed. Reg. 48218, 48220 (Aug. 7, 
2013).
    \8\ PHMSA Safety Alert: Preliminary Guidance from Operation 
Classification (Jan. 2, 2014).
---------------------------------------------------------------------------
    Furthermore, ethanol traffic transported by railroad increased 442 
percent between 2005 and 2010; in 2012, ethanol was the most frequently 
transported hazardous material in the railroad system.\9\ The evolving 
role of our Nation's railroad network in the transportation of 
flammable crude oil and ethanol requires interested parties to take a 
comprehensive approach to eliminate or significantly reduce the safety 
risks. This approach must include improvements to track inspection and 
maintenance programs and the crashworthiness of the tank cars that 
transport these materials.
---------------------------------------------------------------------------
    \9\ FRA Emerg. Order No. 28, 78 Fed. Reg. at 48221; see also NTSB, 
Letter to The Honorable Cynthia L. Quarterman, Administrator, Pipeline 
and Hazardous Materials Safety Administration, U.S. Department of 
Transportation (Jan. 21, 2014), at 7 n. 11-13 (and citations therein).
---------------------------------------------------------------------------
    Indeed, as the volume of flammable materials transported by rail 
grows, the Casselton, North Dakota, accident has become an increasingly 
commonplace story--and multiple recent serious and fatal accidents 
reflect substantial shortcomings in tank car design that create an 
unacceptable public risk. The crude oil unit train involved in the 
Casselton accident consisted of railroad tank cars designed and 
manufactured to Department of Transportation (DOT) Specification 111-
A100W1 (DOT-111)--a design that presents demonstrated and serious 
safety concerns when used to transport hazardous materials such as 
crude oil. (See graphic below.) Specifically, the NTSB has identified 
vulnerabilities in DOT-111 tank car design with respect to tank heads, 
shells, and fittings that create the unnecessary and demonstrated risk 
that can result in the release of a tank car's product in an accident. 
Flammable materials such as crude oil and ethanol frequently ignite and 
cause catastrophic damage.\10\
---------------------------------------------------------------------------
    \10\ See, e.g., NTSB, Derailment of CN Freight Train U70691-18 With 
Subsequent Hazardous Materials Release and Fire Cherry Valley, 
Illinois, June 19, 2009, Accident Rpt. No. NTSB/RAR-12/01 (Feb. 14, 
2012), at 88 (concluding that, in accident involving breaches of DOT-
111 tank cars, ``If enhanced tank head and shell puncture-resistance 
systems such as head shields, tank jackets, and increased shell 
thicknesses had been features of the DOT-111 tank cars involved in this 
accident, the release of hazardous materials likely would have been 
significantly reduced, mitigating the severity of the accident.''). The 
capacity of a tank car is about 30,000 gallons or 675 barrels of oil.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The NTSB continues to find that accidents involving the rupture of 
DOT-111 tank cars carrying hazardous materials often have violent and 
destructive results. For example, on July 6, 2013, a 4,700-foot-long 
train that included 72 DOT-111 tank cars loaded with crude oil from the 
Bakken fields derailed in Lac-Megantic, Quebec, triggering an intense 
fire fed by crude oil released from at least 60 cars. The fire engulfed 
the surrounding area and completely destroyed the town center. Forty-
seven people died. The NTSB is assisting the Transportation Safety 
Board of Canada (TSB) in its investigation of that accident, and in 
January both the NTSB and the TSB issued safety recommendations asking 
the FRA and PHMSA, as appropriate, to require railroads to evaluate the 
safety and security risks of crude oil train routes and select routes 
that avoid populous and other sensitive areas; require railroads to 
develop comprehensive emergency response plans for worst-case releases 
resulting from accidents; and require shippers to sufficiently test and 
properly classify hazardous materials such as crude oil prior to 
shipment. We look forward to working with PHMSA and the FRA on 
implementing these recommendations.
    In addition, the NTSB is investigating, or has investigated, a 
spate of recent similar accidents in the United States that demonstrate 
the destructive results when DOT-111 tank cars containing hazardous 
materials are punctured, including:
  --the July 11, 2012, Norfolk Southern Railway Company train 
        derailment in a Columbus, Ohio, industrial area in which three 
        derailed DOT-111 tank cars released about 54,000 gallons of 
        ethanol, with energetic rupture of one tank car in a post-
        accident fire;
  --the October 7, 2011, Tiskilwa, Illinois, train derailment of 10 
        DOT-111 tank cars resulting in fire, energetic rupture of 
        several tank cars, and the release of 162,000 gallons of 
        ethanol;
  --the June 19, 2009, Canadian National Railway train derailment in 
        Cherry Valley, Illinois, in which 13 of 19 derailed DOT-111 
        tank cars were breached, caught fire, and released about 
        324,000 gallons of ethanol. The post-accident fire resulted in 
        one death, nine injuries, and the evacuation of 600 houses 
        within half a mile of the accident site; and
  --the October 20, 2006, New Brighton, Pennsylvania, Norfolk Southern 
        Railway Company train derailment in which 23 DOT-111 tank cars 
        derailed, fell from a bridge, caught fire, and released more 
        than 485,000 gallons of ethanol.
    Federal requirements simply have not kept pace with evolving 
demands placed on the railroad industry and evolving technology and 
knowledge about hazardous materials and accidents. While the current 
AAR industry standards adopted for DOT-111 tank cars ordered after 
October 1, 2011, that are used to transport packing group I and II 
crude oil impose a level of protection greater than corresponding 
Federal requirements,\11\ the NTSB is not convinced that these 
modifications offer significant safety improvements.
---------------------------------------------------------------------------
    \11\ These new standards, for example, call for DOT-111 tank cars 
that transport flammable liquids in packing groups I and II (the 
highest-risk of the three packing groups, classified according to flash 
and boiling points) to be built with protective ``jackets'' around 
their tanks, constructed of normalized steel at least 7/16 inch thick, 
and call for non-jacketed tanks to be constructed from normalized steel 
(steel that has been subjected to a heat-treating process that improves 
its material properties) at least half an inch thick. See American 
Association of Railroads, Manual of Standards and Recommended 
Practices: Specifications for Tank Cars, M-1002. Corresponding Federal 
regulations require steel thickness of at least \7/16\ inch, but they 
allow for the use of non-normalized steel and do not require 
incorporation of jackets or head shields. See 49 CFR part 179, subpart 
D.
---------------------------------------------------------------------------
    The NTSB continues to assert that DOT-111 tank cars, or tank cars 
of any successor specification, that transport hazardous materials 
should incorporate more effective puncture-resistant and thermal 
protection systems. This can be accomplished through the incorporation 
of additional protective features such as full head shields, jackets, 
thermal insulation, and thicker head and shell materials. Because the 
average service life of a tank car may run 20-50 years, it is 
imperative that industry, the FRA, and PHMSA take action now to address 
hazards that otherwise would exist for another half-generation or 
longer.
    Following the 2011 ethanol release and fire in Cherry Valley, 
Illinois, the NTSB reiterated its prior recommendation that PHMSA, in 
consultation with the FRA, require that railroads immediately provide 
emergency responders with accurate, real-time information on hazardous 
materials on a train.\12\
---------------------------------------------------------------------------
    \12\ NTSB Recommendation No. R-07-4.
---------------------------------------------------------------------------
    The importance of providing correct information to first responders 
highlights a related issue. Following the freight train derailment in 
Paulsboro, New Jersey, on November 30, 2012, which is the subject of an 
ongoing NTSB investigation, the NTSB learned of the critical importance 
to first responders of immediate, accurate information about the 
contents of a derailed tank car. First responders' ability to make good 
decisions in responding to a hazardous materials release depends on 
their clear understanding of what is in a tank car. Any improvement to 
railroad tank car safety must proceed hand-in-hand with an improved 
approach to ensuring first responders have adequate information to take 
appropriate life-saving actions. PHMSA indicates that it, along with 
the FRA, is working to implement this recommendation.
    Although important decisions are clearly ahead for regulators and 
industry, the NTSB is pleased that at least some progress has been 
made. PHMSA published an advance notice of proposed rulemaking (ANPRM) 
on September 6, 2013, for potential safety improvements to DOT-111 tank 
cars, and we remain engaged in that rulemaking proceeding. In NTSB 
comments on the ANPRM dated December 5, 2013, we urged PHMSA to 
promptly address the four recommendations from the Cherry Valley 
accident report and to issue improved and effective regulations that 
reduce the risks associated with DOT-111 tank cars. We will continue to 
carefully monitor PHMSA's progress and will ensure decision-makers have 
the full benefit of the lessons the NTSB has learned through its 
investigations. The NTSB also continues to call on industry 
stakeholders to rise to the challenge and explore measures that will 
improve tank car design in the interim, and, on April 22-23, we will 
hold a rail safety forum on the transportation of crude oil and ethanol 
to get more information on this important safety issue in to the public 
domain.
Implementation of PTC Systems
    PTC systems help prevent derailments caused by over-speeding, 
train-to-train collisions by slowing or stopping trains that are not 
being operated in accordance with the signal systems and operating 
rules, and track workers being struck by trains. The first NTSB-
investigated accident that train control technology would have 
prevented occurred in 1969, when four people died and 43 were injured 
in the collision of two Penn Central commuter trains in Darien, 
Connecticut. The NTSB recommended in response to that accident that the 
FRA study the feasibility of requiring railroads to install an 
automatic train control system, the precursor to today's PTC 
systems.\13\
---------------------------------------------------------------------------
    \13\ NTSB Recommendation No. R-70-020.
---------------------------------------------------------------------------
    More recently, in 2008, more lives were lost in a PTC-preventable 
accident when a Metrolink commuter train and a Union Pacific freight 
train collided head-on in Chatsworth, California, killing 25 people and 
injuring 102 others. The NTSB concluded that the Metrolink engineer's 
use of a cell phone to send text messages distracted him from his 
duties. PTC would have prevented the tragedy that resulted. In the 
aftermath of the Chatsworth accident, Congress enacted the Rail Safety 
Improvement Act (RSIA) of 2008, which requires rail lines with 
passenger service or that carry poisonous-by- or toxic-by-inhalation 
materials.\14\ In 2012, however, the FRA exempted about 10,000 miles of 
track from the PTC mandate.
---------------------------------------------------------------------------
    \14\ Rail Safety Improvement Act of 2008, Public Law 110-432, 
section 104 (2008).
---------------------------------------------------------------------------
    We continue to see accidents that could be prevented by PTC. The 
December 1 Metro-North accident in The Bronx, which killed 4 people and 
injured 59 others, would have been prevented by PTC. Since 2004, in the 
25 PTC-preventable freight and passenger rail accidents that NTSB 
investigated, 65 people died, more than 1,100 were injured, and damages 
totaled millions of dollars.\15\
---------------------------------------------------------------------------
    \15\ These accidents do not include Metro-North accidents.
---------------------------------------------------------------------------
    Implementation of PTC systems was included on the NTSB's Most 
Wanted List when the list was first published in 1990 and has remained 
on the list almost continuously since that time. We may never eliminate 
human error from the railroad system, but PTC provides a level of 
redundancy to protect the people on board trains and in surrounding 
communities when human factors, such as distraction or fatigue, might 
otherwise set an accident sequence into motion.
    Some rail carriers have installed PTC or are working to meet the 
2015 deadline. However, in August 2013, the Government Accountability 
Office (GAO) reported to the U.S. Senate that, due to a number of 
complex and interrelated challenges, the majority of railroads will not 
complete PTC implementation by the 2015 deadline.\16\ The NTSB files 
are filled with accidents that could have been prevented by PTC, and 
for each and every day that PTC implementation is delayed, the risk of 
an accident remains.
---------------------------------------------------------------------------
    \16\ Gov't Accountability Office, Positive Train Control: 
Additional Authorities Could Benefit Implementation, GAO Rpt. No. GAO-
13-720 (August 2013), available at http://www.gao.gov/assets/660/
656975.pdf.
---------------------------------------------------------------------------
    There is much debate by policymakers over whether to extend the 
2015 deadline established by the RSIA. Some railroads will meet this 
deadline. For those railroads that have made the difficult decisions 
and invested millions of dollars, they have demonstrated leadership. 
For those railroads that will not meet the deadline, there should be a 
transparent accounting for actions taken and not taken to meet the 
deadline so that regulators and policymakers can make informed 
decisions. Lives depend on it.
    The NTSB has called for such a transparent accounting. Following 
the head-on collision of two Union Pacific freight trains in Goodwell, 
Oklahoma, the NTSB recommended that railroads covered under the RSIA 
PTC implementation mandate ``[p]rovide positive train control 
implementation update reports to [the FRA] every 6 months until 
positive train control implementation is complete.'' Additionally, the 
NTSB recommended that the FRA publish these reports on its website 
within 30 days.\17\
---------------------------------------------------------------------------
    \17\ See NTSB, Head-On Collision of Two Union Pacific Railroad 
Freight Trains Near Goodwell, Oklahoma, June 24, 2012, Rpt. No. NTSB/
RAR-13/02 (June 18, 2013); Recommendation Nos. R-13-23 and R-13-27 
(2013).
---------------------------------------------------------------------------
    This information should be made available online to ensure a 
transparent accounting for actions taken and not taken to meet the 2015 
deadline so that regulators and policymakers can make informed 
decisions. However, because of the FRA's lack of sufficient action on 
this recommendation, we recently classified the recommendation as 
``Open--Unacceptable Response.'' We are disappointed by the FRA's 
recent position that it will not regularly and automatically provide 
the public with updates on rail carrier progress toward PTC 
implementation. The American people deserve full information on such 
important safety improvements.
Inward- and Outward-Facing Locomotive Audio and Image Recorders
    The December 1, Metro-North accident in The Bronx raised questions 
about the actions of the engineer prior to the crash. The NTSB has 
repeatedly called for railroad carriers to install inward- and outward-
facing audio and image recorders to answer similar questions that have 
arisen in other accidents. Recorders in locomotives and cab car 
operating compartments are critically important not only because they 
would assist NTSB investigators and others to understand what happened 
in a train in the minutes and seconds before an accident, but also 
because they would help railroad management prevent accidents by 
identifying and responsibly addressing safety issues before they lead 
to injuries and loss of life and allow for the development of material 
that can be a valuable training and coaching tool.
    The Chatsworth tragedy in 2008 again made the case crystal clear 
for understanding the activities of crewmembers in the minutes and 
seconds leading up to accidents. Discussing the strong safety case for 
a requirement for inward-facing cameras in locomotives, the NTSB noted 
that:

        [i]n all too many accidents, the individuals directly involved 
        are either limited in their recollection of events or, as in 
        the case of the Chatsworth accident, are not available to be 
        interviewed because of fatal injuries. In a number of accidents 
        the NTSB has investigated, a better knowledge of crewmembers' 
        actions before an accident would have helped reveal the key 
        causal factors and would perhaps have facilitated the 
        development of more effective safety recommendations.\18\

    \18\ NTSB, Collision of Metrolink Train 111 With Union Pacific 
Train LOF65-12 Chatsworth, California, September 12, 2008, Rpt. No. 
NTSB/RAR-10/01 (Jan. 21, 2010), at 58.
---------------------------------------------------------------------------
    Accordingly, the NTSB recommended that the FRA require the 
installation, in control compartments, of ``crash- and fire-protected 
inward- and outward-facing audio and image recorders capable of 
providing recordings [for at least 12 hours] to verify that train crew 
actions are in accordance with rules and procedures that are essential 
to safety as well as train operating conditions.'' \19\ The NTSB also 
recommended that the FRA ``[r]equire that railroads regularly review 
and use in-cab audio and image recordings. . . to verify that train 
crew actions are in accordance with rules and procedures that are 
essential to safety.'' \20\
---------------------------------------------------------------------------
    \19\ NTSB Recommendation No. R-10-1.
    \20\ NTSB Recommendation No. R-10-2.
---------------------------------------------------------------------------
    The NTSB recently reiterated these important recommendations in its 
report on the collision of a BNSF coal train with the rear end of a 
standing BNSF maintenance-of-way equipment train near Red Oak, Iowa, 
which resulted in fatal injuries to the two crewmembers of the striking 
train. Damage was in excess of $8.7 million. As the NTSB stated in its 
report, the accident again demonstrated the need for in-cab recording 
devices to better understand (and thereby prevent) serious railroad 
crashes that claim the lives of crewmembers, passengers, and the 
public.
    In February, we issued our longstanding recommendation on this 
subject directly to Metro-North Railroad. An industry-wide FRA-mandated 
approach would be far more effective, but failing that, we will address 
the recommendation on an individual basis.
Strong Safety Cultures
    Fostering the development of transparent, top-to-bottom safety 
cultures in transportation is an important priority of the NTSB. 
Creating and nurturing a thriving safety culture within rail carriers 
is even more imperative in light of the expanding role of the Nation's 
railroad system as a main transporter of flammable materials and the 
continual increase in passenger ridership.
    The NTSB held a public forum on September 10 and 11, 2013, on 
successes and challenges associated with creating and maintaining 
strong safety cultures across the transportation modes, including rail. 
Panels of experts from academia, industry, and Federal regulatory 
agencies, such as the FRA, offered their perspectives on the 
significant organizational commitments and managerial work that are 
required to maintain safety cultures across large, complex 
organizations such as transportation carriers.
    As members of the subcommittee well remember, organizational 
factors at the Washington Metropolitan Area Transit Authority (WMATA) 
contributed to the fatal June 22, 2009, Metrorail train collision near 
the Fort Totten station in Washington, DC. The NTSB found that WMATA 
leaders did not take sufficient action to make safety a priority and to 
identify and address safety issues from the top down: the WMATA General 
Manager did not provide adequate information about critical safety 
issues; the WMATA Board of Directors did not seek information about 
critical safety issues; and the Board of Directors did not exercise 
oversight responsibility for system safety.
    While WMATA has addressed many of these issues, the NTSB is 
examining the role of safety culture in the Metro-North accident 
investigations. The NTSB public investigative hearing regarding two 
Metro-North accidents last May examined the importance of an 
organizational safety culture and the critical role that organizational 
culture plays in preventing accidents. The NTSB learned during the 
hearing that Metro-North has undertaken efforts to foster a stronger 
safety culture but that challenges remain. The then-president of Metro-
North spoke of the ``challenge'' associated with creating ``a clear 
understanding across the organization that safety is the core value and 
we're not looking for shortcuts, and that we want people to work 
safely.'' \21\ Metro-North officials and labor stakeholders further 
assured the NTSB that Metro-North is taking action to address safety 
issues from the top to the bottom. Organizational issues within the 
railroad industry will continue to be an area of examination as the 
NTSB investigations of the Bridgeport, West Haven, two Bronx, and the 
Manhattan accidents continue.
---------------------------------------------------------------------------
    \21\ NTSB, Board of Inquiry in the Matter of Two Metro-North Rail 
Accidents: Bridgeport Train Derailment on May 17, 2013, and West Haven 
Collision Death of a Metro-North Track Foreman on May 28, 2013, Tr. 
Vol. II at 329 (Washington, DC, Nov. 7, 2013).
---------------------------------------------------------------------------
    In particular, the Bridgeport accident underscores the critical 
importance of regular, vigorous, and robust inspections of tracks. 
Railroad management must afford track workers adequate time and 
opportunity to conduct inspections and make repairs as necessary. As 
part of its ongoing investigation, the NTSB is undertaking a 
comprehensive review of Metro-North track inspections and follow-up 
work and is also looking at the adequacy of the FRA's Track Safety 
Standards.
    The importance of building relationships between management and 
employees that foster a vibrant safety culture cannot be overlooked. 
Trust is an essential ingredient in those relationships. A culture in 
which front-line employees may openly report operational errors and 
safety issues without fear of reprisal is absolutely critical, and, as 
we have seen in the aviation context, improves safety.
    The NTSB will continue to urge Federal regulators, such as FRA and 
the Federal Transit Administration (FTA), to facilitate establishment 
of appropriate safety cultures. The WMATA accident, in particular, 
underscored the critical need for rail mass transit operators to 
enhance and nourish safety cultures. Our 2014 Most Wanted List 
reaffirms our view that:

        [t]he FTA should consider the elements of safety culture, crew 
        resource management, fatigue risk management, and technology, 
        as well as lessons learned from the rail industry, as it moves 
        forward with [new legislative authority to set and enforce new 
        safety standards and conduct investigations]. Identifying and 
        implementing these will be key to saving lives and preventing 
        injuries.
                   updates on ongoing investigations
    I would now like to update the subcommittee on developments in 
several recent investigations that are keeping the NTSB's railroad 
investigators very busy and demonstrate the need for continued 
vigilance in the railroad operating environment.
Metro-North Railroad Accidents
    On December 1, 2013, the NTSB launched an investigative team to The 
Bronx, where a Metro-North Railroad commuter train with approximately 
115 passengers on board derailed shortly after 7:15 a.m. near the 
Spuyten Duyvil station, while going from Poughkeepsie to Grand Central 
Station in New York City. Four passengers died in the Thanksgiving 
holiday weekend accident and at least 59 others sustained injuries 
requiring medical treatment. Metro-North estimated damage in excess of 
$9 million. The Bronx derailment was the fourth accident involving 
Metro-North property to trigger an NTSB investigation in 2013.
    The NTSB issued a preliminary factual report on the accident on 
January 14, 2014. Based on evidence obtained to this point, our 
investigators have found that the accident train was traveling at 
approximately 82 mph when it derailed in the curve on approach to the 
Spuyten Duyvil station. The speed limit for the curve was 30 mph. PTC 
would have prevented this accident. Metro-North does not have a PTC 
system and has stated it will not meet the deadline, but it thought its 
system would be as robust as PTC. This accident demonstrated that it 
was not.
    Investigators have conducted detailed inspections and testing of 
the signal system, train brakes, and other mechanical equipment, and 
thus far have found no anomalies. They found no pre-accident anomalies 
in the track in the derailment area. Investigators have interviewed the 
train crewmembers, including the engineer and first responders and will 
continue to obtain and examine evidence from NTSB headquarters as the 
investigation proceeds. We are receiving excellent cooperation from the 
parties to the investigation: the FRA, Metro-North, the New York Public 
Transportation Safety Board, Teamsters Local 808, the New York Police 
Department, the New York Fire Department, and Bombardier 
Transportation, which manufactured the cars involved in the accident.
    As previously stated, in February, the NTSB issued three additional 
safety recommendations to Metro-North. As our investigation proceeds, 
the NTSB will be prepared to issue additional safety recommendations if 
we determine any further safety improvements are necessary prior to the 
completion of our investigation.
    Last June, the NTSB issued an urgent safety recommendation 
following the May 28 accident in which the track foreman died, calling 
upon Metro-North to immediately implement redundant measures to ensure 
the safety of track workers \22\ (Metro-North indicates it is 
implementing this recommendation), and the NTSB reiterated a safety 
recommendation to the FRA to require redundant signal protection, such 
as shunting, for maintenance-of-way work crews who depend on the train 
dispatcher to provide signal protection.\23\ That recommendation is 
currently classified as open with an acceptable response.
---------------------------------------------------------------------------
    \22\ NTSB Recommendation No. R-13-17.
    \23\ NTSB Recommendation No. R-08-6.
---------------------------------------------------------------------------
    I am pleased to inform the subcommittee that Metro-North has fully 
cooperated in all these investigations, at a difficult time for the 
railroad and its employees in the wake of several closely-spaced 
accidents. We anticipate and look forward to Metro-North's continued 
cooperation as the investigations proceed.
    Although it is still too early in our investigations of these 
accidents to draw definitive conclusions, we will seek answers to the 
following questions, among others: What caused these accidents? Are 
there common threads among the accidents? What improvements can Metro-
North, regulators, and others adopt that will prevent similar accidents 
from occurring in the future?
    At the same time, we are closely studying FRA's March 2014 report 
to Congress on the agency's ``Operation Deep Drive,'' a comprehensive 
assessment of the safety of Metro-North's operation. As we analyze 
FRA's findings, we are at least encouraged that FRA is taking a broad 
view in its safety oversight and has demonstrated willingness to 
identify and correct safety deficiencies while the NTSB's investigation 
proceeds.
    The NTSB tentatively expects to complete our investigations of all 
four accidents involving Metro-North trains or property in mid-
November. Last month, we sent a team to New York City to investigate 
another Metro-North worker fatality. It is troublesome that this is the 
fifth accident involving Metro-North in less than 1 year that we are 
investigating. We recognize and share the subcommittee's sense of 
urgency to understand what lessons can be drawn from these accidents 
and to ensure that the railroad industry and its regulators implement 
appropriate safety improvements to prevent recurrences, and if our 
investigation reveals problems that need immediate attention, we will 
not hesitate to issue appropriate recommendations before we complete 
the investigation.
Freight Train Collision and Crude Oil Release Near Casselton, North 
        Dakota
    As I noted above, the NTSB is investigating the December 30, 2013, 
Casselton, North Dakota, accident that resulted in a significant post-
crash fire that triggered a voluntary evacuation of about 1,400 people 
from the surrounding community.
    The accident sequence began shortly after 2 p.m. when 13 cars of a 
112-car westbound BNSF grain train derailed. One of the derailed cars 
came to rest on the adjacent track. Shortly afterward, a 106-car BNSF 
petroleum crude oil unit train travelling east on the parallel track 
collided with the derailed grain car. The collision caused the head-end 
locomotives and the first 21 cars of the crude oil train to derail. 
Some of the crude oil tank cars were punctured during the accident 
releasing crude oil that ignited and caused the energetic rupture of 
several other tank cars. Dense smoke and concern over expanding fires 
resulted in voluntary evacuation of the surrounding area.
    The crews on the two trains were uninjured. No injuries to the 
public were reported. Damage was estimated at $6.1 million.
    On a preliminary basis, we have found that, of the 20 derailed tank 
cars, 18 were breached and more than 476,000 gallons of crude oil were 
released. NTSB investigators have completed the on-scene portion of the 
investigation, including interviews with the train crews and first 
responders. A broken axle and two wheels were shipped to the NTSB 
materials laboratory in Washington, DC, for further evaluation and 
analysis, as well as the locomotive event and video recorders. The 
parties to the investigation include the FRA; PHMSA; the BNSF; the 
Brotherhood of Locomotive Engineers and Trainmen; the International 
Association of Sheet Metal, Air, Rail and Transportation Workers, 
formerly known as the United Transportation Union; Trinity Rail Car; 
and Standard Steel, LLC.
    On April 7, we issued a recommendation to the AAR to ``require 
secondhand-use railroad axles to undergo nondestructive testing 
specifically designed to locate internal material defects in axles.'' 
We issued this recommendation after learning that the recovered broken 
axle broke because of a manufacturing defect The current nondestructive 
testing requirements prescribed by the AAR are not effective in 
detecting internal material defects, including centerline voids as 
discovered in the Casselton axle, in secondhand-use axles. Alternate 
test methods, however, are capable of locating internal material 
defects, such as the centerline void we discovered in the axle involved 
in the accident. We have found that, had the broken axle in this case 
been subjected to more thorough nondestructive testing when it was 
reworked in 2010, the material defect would likely have been found and 
the axle would not have been allowed to be returned to service. Our 
recommendation calls for augmented testing to ensure that axles are 
safe to return to service.
CTA Accidents
    The NTSB also continues to investigate recent two CTA accidents in 
the Chicago area, the most recent of which occurred March 24, 2014, at 
about 2:49 a.m. local time, when a CTA train collided with the bumper 
post at the end of a track at the CTA's O'Hare Station. The lead car 
rode over the bumper and went up an escalator at the end of the track. 
Thirty-two people, including the operator, were transported to the 
hospital. Damage to equipment was estimated at $6 million.
    The train was operating at about 26 mph when it passed over the 
fixed trip stop, which applied the train emergency braking system. The 
distance from the fixed trip stop to the end of the track, however, was 
too short to allow the train to stop in time.
    The operator said she dozed off shortly before the accident and 
that the last signal she recalled indicated that the next signal would 
require a stop. She said she woke up when the train passed over the 
fixed trip stop. We are continuing to gather evidence as we thoroughly 
investigate this accident.
    We also continue to investigate the September 30, 2013, CTA train 
collision in Forest Park, Illinois, in which, at 7:42 a.m. local time, 
an unattended CTA train collided with a train in operation at the 
Harlem-Congress Station on the CTA Blue Line. One car derailed. No 
serious injuries were reported; however, two CTA employees, including 
the train operator, and 33 passengers were transported to local 
hospitals and were later released.
    The unattended train, with neither an operator nor passengers 
aboard, had begun rolling out of the Forest Park Yard at 7:38 a.m. It 
traveled northward onto the southbound main track toward the Harlem-
Congress station. Based on a preliminary review of the event recorder 
data, we believe it was traveling at 25 mph just before reaching the 
Harlem-Congress Station. At 7:41 a.m., CTA train 110, which was 
operating in service with eight railcars, was stopped as scheduled at 
the Harlem-Congress Station. At 7:42 a.m., the unattended train struck 
the in-service, stopped train.
    Both trains were designed for multiple unit operation. Electrical 
power was provided by an outside third rail. Train movements on the 
Blue Line are controlled by a traffic control system, which consists of 
wayside track signal indications and in-cab signals in the train 
operator's cab. Initial property damage was estimated at $6.4 million.
    On October 4, 2013, the NTSB issued two urgent safety 
recommendations \24\ to the CTA. The recommendations address the need 
for redundant protection to prevent unintended train movements on the 
CTA system. The NTSB also issued one safety recommendation \25\ to the 
FTA to advise all transit properties to review their operating and 
maintenance procedures for stored, unoccupied cars.
---------------------------------------------------------------------------
    \24\ NTSB Recommendation No. R-13-034 and R-13-035.
    \25\ NTSB Recommendation No. R-13-036.
---------------------------------------------------------------------------
                               conclusion
    Thank you for the opportunity to appear before you and to provide 
updates on our ongoing investigations as well as NTSB perspectives on 
several compelling safety issues. Please be assured that the NTSB will 
remain engaged on these and all issues affecting transportation safety. 
I look forward to answering the subcommittee's questions.

    Senator Murray. Thank you. Thank you to both of you today.
    Mr. Secretary, there has been a lot of concern about the 
volatility of crude oil from the Bakken shale deposits. And in 
January, the Pipeline and Hazardous Materials Safety 
Administration issued a safety alert after the explosive 
accidents at Lac-Megantic in Castleton indicated that Bakken 
crude oil may be more flammable than usual. My constituents are 
actually very interested in this because Bakken crude is being 
shipped to the refineries in my home State of Washington.
    To provide an answer to this, I understand that you have 
announced an expanded sampling and testing of Bakken oil, and I 
wanted to ask you today when you expect that testing to be 
finished.
    Secretary Foxx. Madam Chairman, the testing is ongoing. I 
would say to you that we will wrap up our testing as quickly 
and as expeditiously as we can. In addition to the sampling 
that PHMSA is undertaking, we have also required from the oil 
companies data samples from their own testing. And I am 
unfortunately here to deliver the news that we have not 
received a robust sample from the industry to this point.
    As you well know, in a situation like this, given the 
questions about the volatility of the Bakken crude oil, that 
the more samples we have, the better we can evaluate next steps 
as it relates to----
    Senator Murray. And so far the industry has not been 
cooperative in providing you that information?
    Secretary Foxx. To my knowledge, only three of the oil 
companies have provided information. We have required that we 
get as much as we possibly can, and that is not a huge amount 
of sample data for us.
    Senator Murray. Is that slowing down your ability to get us 
good information?
    Secretary Foxx. It is not only slowing our ability to get 
you good information, it is also affecting our ability to 
develop the kind of coordination that we need to have with 
first responders so that they know exactly what is being moved 
through their communities.
    Senator Murray. Okay. Well, assuming that you can get this 
from the industry and you have done your testing, if you find 
that it is to be at higher risk, would you change how DOT 
regulates the shipment?
    Secretary Foxx. Depending on what we find, we would 
certainly develop safety measures designed and calibrated to 
address the particular substances that we have. That is one of 
the reasons why in our call to action we worked with the rail 
industry to do things, like reducing speeds and so forth, and 
on an interim basis as we work to learn more about this 
material.

                           OIL SPILL RESPONSE

    Senator Murray. Okay. We are going to continue to pursue 
that line with you. In January the NTSB issued its report on 
the Lac-Megantic accident, and the report raises several issues 
with the regulation of crude oil shipments by rail. Of 
particular interest were the board's findings on comprehensive 
oil spill response plans. Those kinds of plans ensure that 
carriers have sufficient personnel and equipment that are 
available to address an emergency.
    Oil spill response plans are a well-known safety function 
in the maritime and the pipeline industries. I am well aware of 
those. But rail is, for all practical purposes, exempt under 
current regulations, and I find that very troubling. If all of 
our other means of prevention fail, we need to make sure that 
cities, like Seattle or anywhere, have the resources they need, 
and response plans are a very meaningful way to provide FRA 
oversight, and have been proven. So if you could comment today 
more on your details, Chairman Hersman, on your recommendations 
to improve spill response for us.
    Ms. Hersman. Chairman Murray, I think that one of the first 
times I interacted with you was at a field hearing on the 
Bellingham pipeline accident.
    Senator Murray. That is correct, 10 years ago.
    Ms. Hersman. And we know all too well when we have 
investigated accidents on the marine side, on the pipeline 
side, that there is an expectation to provide an oil spill 
response. After the Exxon Valdez incident, through the Oil 
Pollution Act of 1990, this country realized we must be 
prepared for worst case discharges or worst case scenarios. It 
makes absolutely no sense that we do not have similar 
requirements when we have, in essence, a moving pipeline with 
unit trains of crude oil or ethanol.
    In Lac-Megantic, 1.5 million gallons of crude oil were 
released. In these cases we must support our emergency 
responders in local communities because they cannot possibly be 
prepared for one of these worst case discharges. We must have a 
support structure in place for them, and that is the obligation 
of the shippers and the transporters to make sure this happens. 
They are the best equipped to execute contracts with response 
resources all along the route so that there is a rapid 
response. The communities that are along the rights-of-way 
deserve it.
    Senator Murray. Similar to what we do with pipelines.
    Ms. Hersman. Absolutely. Pipelines and the marine industry 
have done this for years, decades, in fact. They know how to do 
it, and it can be done.
    Senator Murray. Okay. Mr. Secretary, to get more meaningful 
spill response plans, would we need legislation or can you do 
that on your own with your own authority?
    Secretary Foxx. We believe that as we develop a regime of 
safety, that it would be helpful for our Department to work in 
conjunction with Congress. There will be areas where the agency 
capabilities are sufficient. There will also invariably be 
areas where we will need action by Congress. This continues to 
be an evolving area for us, but we are moving quickly to help 
move that conversation along.
    Senator Murray. Okay. Well, we will be working with you on 
that. Let me move to the tank cars themselves. The DOT-111 is 
the Federal safety standard for tank cars used to ship liquids, 
including crude oil and ethanol. Unfortunately has a poor 
safety recording dating back decades, as you indicated, and the 
NTSB has been pushing for design improvements since the 1970s. 
I think we can all agree the standard needs to be updated, 
particularly given the dramatic growth in the shipment of 
hazardous materials like crude oil and ethanol.
    While the resiliency of the tank car is not the silver 
bullet of rail safety, it is a community's really last line of 
defense to prevent a spill. I know the Department is working 
aggressively on a tank car rule, and recently Administrator 
Quartermaine said it would be released soon. Mr. Secretary, can 
we expect to have that tank car rule issued soon?
    Secretary Foxx. Yes.
    Senator Murray. This spring?
    Secretary Foxx. We will work as hard and diligently as we 
can. And we--you know, I can assure you that we are not going 
to wait until 2015 to push this rule out. We are moving as 
quickly as we possibly can.
    Senator Murray. And are you planning to address the phasing 
out of DOT-111 tank cars for the transportation of crude and 
ethanol?
    Secretary Foxx. We agree that the DOT-111 either needs to 
be improved or phased out. And again, as an ongoing rulemaking 
process continues, there will be more as that rule is 
announced.
    Senator Murray. Okay. Thank you very much, and I appreciate 
your responses to that. I will turn to Senator Collins.

                           TANK CAR INTEGRITY

    Senator Collins. Thank you. I am going to follow up on your 
questions on the standards for tank cars because as Chairman 
Murray has pointed out, the NTSB has identified weaknesses with 
the DOT-111 for decades, and indeed made specific 
recommendations to DOT as a result of the ethanol train that 
derailed in Illinois in 2009. The railroad industry has 
petitioned DOT to improve the safety standards for tank cars, 
and even came out with its own design known as CPC-1232.
    Let me start with you, Madam Chairman, first of all. Could 
you explain why the NTSB has determined that the current tank 
car, the DOT-111, is not suitable for the transport of crude 
oil?
    Ms. Hersman. The suitability of the tank car depends on the 
commodity that is being transported. If you are moving corn 
oil, DOT-111 is just fine. But when you are moving crude oil, 
you are talking about a much greater risk, in particular, when 
transported in unit trains. We are talking about a hundred tank 
cars in a single train, and that really does compound risk when 
you start talking about a derailment.
    We have seen poor performance historically of the DOT-111s 
in the event of a derailment or a collision. They breach. They 
puncture. They release their load. And the problem with crude 
oil is once you start a pool fire, you can have a chain 
reaction or a domino effect that other cars start to release 
their load, too.
    It is a very volatile situation, and one that is very 
complicated for communities to respond to. The NTSB wants to 
see strengthened tank cars. That means improved head shields, 
better puncture resistance, making sure that the valves and the 
outlets are protected. These are all things that are doable. 
The biggest challenge that the industry has had is that they 
have had this boom in demand for transporting flammable 
products, and they have not had the right kind of containers to 
move it. They have got to catch up.
    Senator Collins. And in your judgment, is the CPC-1232 
design sufficient for transporting crude oil?
    Ms. Hersman. We have seen that even the railroad industry 
and DOT are talking about going beyond the 1232. We think that 
is wise given the risk here. Again, we have to go back to the 
multi-pronged approach. It is about prevention in the first 
place, mitigation, which is improving these tank cars, and then 
response because there are real challenges in running, 
creating, building, and using a tank car that is completely 
resistant to failure. It is going to come at a cost. A new tank 
car design will have a weight penalty. It is about prevention, 
mitigation, and response. If you get into a high speed accident 
with a 1232, you are still going to have problems.
    Senator Collins. Mr. Secretary, I want to press you further 
on the issue that Chairman Murray brought up, and that is the 
exact date that you expect to issue the new tank car standards. 
After all, this is not a new issue to DOT. The recommendations 
were made years ago by the National Transportation Safety 
Board. And the industry itself has petitioned the Department.
    So for me, it is not sufficient to hear you say we will not 
let it go into 2015. I would like to know two things from you. 
One, what is your target date for issuing the new regulations, 
the new rules? And second, are they going to specifically 
address safety standards for building new tank cars as well as 
modifying existing tank cars through retrofits?
    Secretary Foxx. Well, my target date is as soon as 
possible. That is about as----
    Senator Collins. That is a frustrating answer, I have to 
tell you.
    Secretary Foxx. I understand. It is frustrating for me to 
give it to you, but I can promise you, Senator, that we are 
working as hard as we can to get the rule done as quickly as we 
can.
    I also want to make it very clear that the Department of 
Transportation is taking a very comprehensive approach to this. 
As you rightly pointed out in your opening statement, this is 
an issue that has prevention aspects, mitigation aspects, and 
emergency response aspects. And as we work with industry to 
adopt voluntary standards on things, as Chairman Hersman was 
just talking about, with new braking technology such that every 
car has a braking system on it, we reduced the risk that we 
have the kind of accordion effect of an accident that can 
create a much more tragic event.
    With specific regard to the tank car standard, our desire 
is to have a very complete and thorough rule that addresses all 
aspects of what the second part of your question took into 
account--what a new tank car might look like, et cetera. I am a 
little constrained by my ability to talk about the specifics of 
what is being contemplated, but what I can promise you is that 
we are going to work as hard and as fast as we can to get the 
answer right.
    The last point I would like to make is that part of 
developing the appropriate tank car standard is having a very 
comprehensive understanding of what it is we are transporting, 
and that is why the testing is so critical. And again, we have 
seen some unfortunate and tragic accidents happen both in 
Canada and in the United States over recent months. It has 
caused us great concern, and we are trying to develop a tank 
car standard that will be right on target to protect the public 
and the shippers as well.

                    INTERNATIONAL SAFETY COOPERATION

    Senator Collins. Madam Chairman, one final question for you 
at least for this round. The State of Maine serves as a pass-
through for crude oil trains traveling from North Dakota to 
refineries in New Brunswick, Canada. In your work with Canadian 
officials, do we face special challenges because so many of 
these trains are crossing international boundaries?
    Ms. Hersman. When you talked about the responders from 
Maine that went to Canada to help to help in Lac-Megantic, 
Quebec, I think it points out that transportation safety and 
international friendship know no boundaries. I think when it 
comes to transportation safety, we are working very closely 
with our counterparts. Issues that the NTSB has identified we 
have shared with the (TSB) of Canada and vice versa.
    We will continue to do that because it does not matter 
which side of the border these trains are on. There are risks 
that need to be mitigated.
    Senator Collins. Thank you.
    Senator Murray. Thank you. Senator Johnson.
    Senator Johnson. Thank you, Madam Chairman. Secretary Foxx, 
your testimony rightly focuses on ensuring real safety as the 
transport of crude oil by railroads continues to grow. Although 
crude oil represents a relatively small segment of rail 
traffic, BNSF tells me that the oil-related traffic has 
increased by 229 percent since 2006.
    In addition to safety concerns, the increase in oil 
shipments has other consequences for our rail transportation 
network. Severe bottlenecks in rail service in the Dakotas and 
upper Great Plains have left much of last year's harvest still 
sitting in piles.
    Ethanol plants in South Dakota have been forced to slow 
production because they cannot move their product, and co-ops 
cannot get fertilizer shipments that farmers will need for 
spring planting. This situation is having a significant effect 
and potentially lasting impact in rural America.
    The Surface Transportation Board will be examining rail 
service in a public hearing tomorrow, and I am pleased that a 
number of South Dakotans are planning on participating in that 
forum. I am also interested to hear your perspective on the 
service disruptions. Beyond the STB (Surface Transportation 
Board) proceedings, what can the Department of Transportation 
do to encourage more efficient and reliable rail service?
    Secretary Foxx. Senator, thank you for the question. And I 
want you to know that our leadership has regularly met with 
railroad executives to express our concerns about service 
disruptions because we, too, share your concerns about the 
impact on other commodities and industries.
    The Surface Transportation Board is the primary authority 
on these issues, and I understand that the STB is holding a 
hearing to discuss current rail service issues in the Midwest. 
Our FRA administrator, Joe Szabo, will be testifying on behalf 
of the Department, and we will highlight our safety concerns 
with respect to service disruptions and delays, as well as 
Amtrak's worsening on time performance, which is also an effect 
that we have seen.
    To back up for a second, however, where you started is 
essentially the point, which is that we are seeing an 
exponential increase in the movement of crude oil by rail, 25 
percent since January 2012 and 37 times the amount of crude oil 
by rail that we saw in 2005. With that kind of capacity coming 
onto the system, it is going to have other impacts.
    And if I had one additional point to make to you, it would 
be that we not only need a larger surface transportation 
network from the standpoint of expanding capacity over our 
surface transportation system writ large. But we particularly 
need it now as we are having a growth in the movement of energy 
through all modes of transportation. And in order to ensure 
that it is safe, we need to make significantly more investments 
in our infrastructure to get there.
    Senator Johnson. One of the challenging aspects of the 
service problems we are seeing in the Midwest is the seasonal 
nature of ag shipping, which causes a spike in transportation 
needs in the fall after harvest and again in the spring. In 
times of severely constrained capacity, what could be done to 
ensure that agricultural goods do not take a backseat to 
shipping other commodities, like crude oil?

                           SERVICE DISRUPTION

    Secretary Foxx. This is a question that we are going to 
continue to need to engage with you and others in Congress on, 
as well as with the stakeholders in the private sector, 
including the agricultural community and others. But it is a 
subject on which we take as of vital importance to rail, and we 
will continue to engage with you and others on that topic, sir.
    Senator Johnson. Ms. Hersman, do you have any comment?
    Ms. Hersman. No, sir. That is outside of the NTSB's 
jurisdiction with respect to the service provisions.
    Senator Johnson. Secretary Foxx, some of the other factors 
contributing to the service problems include the overall 
increase in rail shipping due to an improving economy, 
prolonged periods of extreme cold this winter, and the large 
harvest last fall. While I am hopeful that the rail service 
issues in the region will improve in the coming weeks, many of 
these same factors could very well be present again next fall 
and winter.
    Although the railroads are planning substantial capital 
improvements, it seems to me that we also need to be looking at 
our overall transportation infrastructure and whether it is 
adequate to support a robust economic activity we would all 
like to see. Can you elaborate on the state of our 
transportation infrastructure and its ability to accommodate 
increased freight transport safely and efficiently? What steps 
should we take to bring our infrastructure up to par?
    Secretary Foxx. Senator, we are expecting to have to 
transport 14 billion tons more freight between now and 2050. It 
is projected to grow exponentially, which is going to put 
enormous pressure on our current capacity. And if we do not 
make dramatic improvements in the maintenance and the expansion 
of capacity in this country, we are going to have more problems 
like the ones that you were just talking about.
    I believe that there is also a very important aspect to 
this as well, which is we can have a new tank car standard. We 
can slow down speeds. We can take lots of different steps. But 
if there is a piece of broken track that catches the wrong tank 
car, that would be a calamity that is totally avoidable by 
making the kind of investments in our infrastructure that we 
need.
    So from my vantage point, Senator, we have an awful lot of 
work ahead of us as a country, but it starts with making 
investments and ensuring that we have the safety regime and the 
number of inspectors that are needed to be able to ensure that 
we are able to move our commodities fast, but also safely.
    Senator Johnson. My time has expired.
    Senator Murray. Thank you very much. Senator Coats.
    Senator Coats. Thank you. I know Senator Heitkamp has a 
committee to chair, and I am going to be very, very brief 
because I have got a commitment also at the State Department 
and I need to get up there. So I am just basically going to 
make a statement and allow you to respond for the record so I 
can yield back my time.
    Clearly this enormous increase in the production of crude 
oil is of benefit to the United States, and it is a benefit to 
the world, and it has all kinds of implications for us 
economically, domestically, as well as in foreign policy, and 
on and on it goes. So nobody wants to slow that down. We want 
to encourage more.
    But that clearly comes in conflict with the delivery 
system. And the proposed solutions that have been suggested by 
Chairman Hersman and you, Secretary, a lot of those are going 
to take time to implement, whether it is tank car design, 
replacement of tank cars, whether it is installation of the PTC 
(Positive Train Control) system. There already is an effort to 
delay that for a 5-year period of time for technical reasons. 
Most of the solutions are going to require some time, not to 
say that we should not do it. And so, obviously some--dealing 
with the safety culture and some of the options that you have 
looked at.
    But I want to ask one question here. If we are looking at 
possible solutions or better ways of delivery, have you, Mr. 
Secretary, or have you, Chairman Hersman, weighed in with the 
administration relative to their decision on the Keystone 
pipeline? I mean, building a pipeline obviously is going to 
take some time, but it also falls in the category of the other 
solutions that are proposed. And I know this is a critical 
decision coming up that the President and Secretary of State 
has to make. But the State Department has put forward a 
positive report. There has not been any scientific proof that 
there is any kind of a major environmental issue here with this 
anymore as has been alleged for many years.
    So I am just wondering if you either you, Mr. Secretary, or 
you, Chairman Hersman, have weighed in basically saying we have 
a real problem here. But one of the solutions, and you cannot 
use time as a reason not to do it because we probably would 
have to do all these things, is building that pipeline and 
getting the approval to do that. What is your thought on that?

                 KEYSTONE PIPELINE TECHNICAL ASSISTANCE

    Secretary Foxx. From the Department of Transportation 
perspective, there is technical support provided to the State 
Department as they make their evaluation. But positionally, our 
stance is that whether crude oil is moving by pipeline or by 
truck or by rail or whatever, our responsibility is to ensure 
that it moves safely.
    Senator Coats. So the State Department assessed your 
evaluation of the pipeline as being one of the possible ways in 
which we could address the safer transport of crude oil?
    Secretary Foxx. We provide technical support for their 
consideration process. Quite frankly, I would like to submit to 
you maybe for the record a summation of what kinds of technical 
assistance we may have provided, but we would not have 
recommended one thing or another. Our position is to, however 
this stuff is moving in this country, it has to move safely.
    [The information follows:]
                 Keystone Pipeline Technical Assistance
    PHMSA is acting as a cooperating agency providing input only to the 
Department of State, who is the lead jurisdictional authority for 
determination of whether to approve or deny the project. Input/comments 
from PHMSA have primarily been in the area of pipeline safety, and when 
requested from Department of State.
    Through its role as cooperating agency PHMSA has:
  --Attended State Department Public Meetings when requested. For those 
        meetings where a Q&A format was allowed (versus comment only), 
        PHMSA helped respond to questions related to pipeline safety.
  --In addition to requirements in accordance with the hazardous liquid 
        pipeline safety regulations, Title 49 Code of Federal 
        Regulations (CFR) Part 194, Part 195, and Part 199, PHMSA has 
        worked with the State Department to develop a list of 59 
        conditions intended to help address public concerns related to 
        pipeline safety that were raised during the State Department's 
        commenting processes. The conditions are in the area of 
        pipeline design, manufacturing, construction, operations, 
        maintenance, inspection, reporting, record keeping and 
        certification. Implementing these conditions would provide 
        additional safety measures intended to address public concerns 
        about this project and provide a degree of safety along the 
        entire length of the pipeline system similar to that required 
        in high consequence areas as defined in the regulations in 
        Title 49 CFR Part 195.

    Senator Coats. I understand that, but maybe you are sitting 
around the Cabinet meetings and so forth and so on, and maybe 
you get a plug in.
    You know, I am sitting here in front of the result of not 
having a pipeline or at least we could reduce the possibility 
of that. But, Chairman Hersman, do you want to comment on that?

                     SHORT-TERM SAFETY IMPROVEMENTS

    Ms. Hersman. The short answer is, no, the NTSB has not 
weighed in on the Keystone pipeline. The longer answer would be 
is you are absolutely right about the length of time for 
implementation of a new tank car design. The questions being 
asked about the DOT rulemaking are just the beginning. You 
still have a phase-in period to manufacture and implement new 
standards.
    We think there are some things that can be done right now 
real time. Routing decisions, providing critical information to 
first responders, and operational decisions are actions that 
will benefit safety right now. For example, reducing operating 
speeds is included in the agreement that the Secretary made 
with the railroads. There are ways to mitigate risk without 
having to build a lot of time and money into it.
    We have certainly investigated pipeline accidents, too, and 
have made recommendations about risks inherent in all modes of 
transportation. But I understand your point. It would have been 
more helpful had the industry been able to plan for 
transportation needs and options prior to the boom. The problem 
is that the transportation infrastructure, whether it is rail 
or pipeline, was not in place to deal with the boom when it 
came.
    Senator Coats. Yes. And it is clear they did not. It was 
unexpected. We did not know we were going to tap into all that. 
Governor Hoeven can tell us how that happened under his watch, 
and a great benefit to the United States.
    But maybe, I guess, what I am suggesting is a little 
whisper in the ear, nudge of the elbow, you know, that this 
could be one of the ways that we could sort of help mitigate 
some of these disasters. Thanks, Madam Chairman.
    Senator Murray. Senator Heitkamp.
    Senator Heitkamp. Thank you, Senator Coats, and thank you 
to the chairwoman and the ranking member for holding this 
important hearing. I think Secretary Foxx probably is sick of 
hearing from me at this point.
    Secretary Foxx. No, not at all.
    Senator Heitkamp. We have spent a lot more time on this 
issue than anyone ever anticipated that we would. And it is so 
critical that we get this right, because no matter how many 
pipelines we build, we are still going to move crude on the 
rails. There is not going to be a pipeline that goes to 
Washington State or one that goes to New Brunswick. We are 
going to still be moving this. And I think one of the things 
that we have really been encouraging is a collaboration and a 
cooperation.
    I want to just take off from the three various categories 
that we have been talking about because there have been a lot 
of committees that have been talking about this issue from 
Commerce, to Appropriations, to Homeland Security, a broader 
expansion of the rail.
    So in prevention, I have kind of a list of things. We have 
got positive train control that is being held up by the FCC's 
inability to give the go ahead. That has been a big problem, 
right, Secretary? So I hope that you are encouraging and 
pushing everyone that you can to make that happen and to talk 
about the real important consequences of not getting positive 
train control in a timely fashion.
    The second issue is technology, real time data, about what 
is happening on the rails. You are absolutely right. We have to 
have--we have to know when we have a track problem so that we 
can prevent it. We know that there are some technologies that 
can be deployed. The industry thinks they have some 
technologies. We need to amp that up with the Federal Railroad 
Administration.
    The third thing, and this is really one of my questions, is 
greater inspections, more resources for inspections of those 
track lines and prevention. Now, very many States have now 
begun that discussion of ramping up their inspectors. I want to 
know what you are doing to coordinate with State DOTs and State 
inspectors to make sure that those inspections are actually 
value added, that you are consistent in terms of what you are 
looking at, and how you can use those resources to expand on 
the Federal inspections.

                       TRAINING STATE INSPECTORS

    Secretary Foxx. You know, that is a great question, 
Senator. And one of the programs the FRA has implemented works 
with States to train their inspectors. And so, when we see 
trends and safety concerns on a national level, we have a very 
direct way to impact the way that we can leverage our own 
inspection resources by training State inspectors to do the 
same types of evaluation that Federal inspectors would do.
    The program has been very successful, and I know that we 
have recently signed on, I think, a new State that is going to 
be coming on board soon that you know about.
    Senator Heitkamp. Yes. One of the kinds of follow-ups there 
is the importance. I think before there used to be some grant 
funding to the States. And if we can take a look at whether 
that is something that should be reinstated, we should, in 
fact, get more rail inspectors out there.
    Obviously equipment--testing equipment and getting 
equipment on a schedule, you know, one of the--without putting 
anyone on the spot here, one of the causes of, we believe, of 
the derailment was a broken axle on one of the trains, which 
was not the train that was carrying the oil, but carrying 
grain.
    Now, let us talk a little bit about mitigation. We have 
tank cars, which I think has been covered. I share both the 
ranking member and the chairwoman's frustration in not getting 
a date certain. And I understand your frustration in not 
getting data on what, in fact, is the chemical makeup of Bakken 
crude and how that changes over a time. And I applaud your 
methods, and I know that API has been working to try and get 
more data to you. And if we are having problems with 
communication there, we need to fix those problems. And we 
cannot let a design--a new design of tank cars delay--be 
delayed by, you know, a struggle about getting data back and 
forth. So we need to understand that.
    But I will tell you, you know, you say you have heard from 
three. We have heard it is four. But those four might, in fact, 
represent 50 percent of the production. So we have got to be a 
little careful when we say four because there may be some minor 
producers out there who are not, you know--and we do not know 
what percentage of those four. I think one definitely all their 
product on the rails. Some of these would also find pipelines.
    And so again, I would really reiterate the need for you to 
communicate with anyone that you can to get this data as soon 
as possible and make sure that testing gets done.

                           DATA FROM SHIPPERS

    Secretary Foxx. We are communicating every day.
    Senator Heitkamp. OK.
    Secretary Foxx. And even among the three or four, there are 
variations in what is being provided to us. We, by the way, are 
very grateful to those shippers that are cooperating and 
providing the information that they have provided. But I can 
assure you that as this rulemaking process goes along, we are 
not stopping for anybody. We are moving through. We do not want 
there to be a situation where folks have slow stepped us on 
providing data on the front end, a rule is developed, and then 
the complaint is that we did not see the data, we did not 
understand exactly what we were shooting at once a rule is 
actually established.
    Our desire is to have a ready----
    Senator Heitkamp. Mr. Secretary, I would be less concerned 
with that if I actually asked for it ahead of time and did not 
get it provided. And so, I think you have a pretty good 
response if you say, well, this data would have been useful 
before we promulgated the rule.
    Secretary Foxx. Absolutely.
    Senator Heitkamp. If you are asking for that data now, I 
think it is critically important.
    Secretary Foxx. Absolutely.
    Senator Heitkamp. And I know that they are paying close 
attention to statements that happen on the Hill, and hopefully 
this will once again encourage folks to be cooperative. This is 
a fact we can know. We can know what is in those tank cars. We 
may have a different judgment on what happens as a result of 
that knowledge, but we can know what is in those tank cars.
    Secretary Foxx. Agreed. We will move this rule with 
absolute speed, but we want to make sure that we are hitting 
the right safety standard.
    Senator Heitkamp. And I do not----
    Secretary Foxx. And that is exactly what we are doing. So, 
you know, I just want to make it very clear that any perceived 
delay with this rule is not the product of my saying let us 
slow this down. This is an agency that is data based. It is 
trying to do the very best in trying to level set a safety 
standard for tank cars.
    Senator Heitkamp. And I have run out of time, but I want 
to--I am not going to be able to stay here because I have got 
to go chair the floor. But I want to thank the fire chief for 
your excellent work and for what you do every day to keep the 
citizens of your community and obviously some of our neighbors 
to the north safe. Thank you, and we are working on getting you 
better information, better equipment, better training so that 
you can meet the challenges of your community.
    Thank you to the chair and to the ranking member for 
letting me participate.
    Senator Murray. Thank you. Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chair, and I would like to 
thank Secretary Foxx for your willingness to come to North 
Dakota. We appreciate it as well as your willingness to meet 
with us and stakeholders on this issue on numerous occasions. 
And I understand you are putting a real priority on this 
important issue, as you should, and I want to thank you for 
that.
    As you know, this is an issue that I have been concerned 
about and working on for some time. I had written to PHMSA in 
December 2012 and said, hey, industry needs these new standards 
for the 1232 or updated cars. And also on the pipeline aspect, 
something that I have been working on since governor days 
because as part of an energy plan for this country, we need an 
all of the above infrastructure plan, meaning pipelines, 
adequate rail capacity, and adequate road and truck capacity. 
And as I think both of you have said this morning, it has to be 
done as safely as possible.
    So I would like to start, Secretary Foxx, with we have had 
some meetings with all the stakeholders there--the class one 
railroad CEOs with some of the oil company CEOs, API, 
manufacturers, the rail car owners. How do we get consensus so 
that we are attacking this thing in a comprehensive way, 
meaning doing everything we can to prevent derailments, then 
making sure that we mitigate to the extent possible risk of 
fire or explosion and that we have adequate emergency response? 
How do we build that consensus as well as keep this moving so 
we get the comprehensive solution in places as quickly as 
possible?

                             CALL TO ACTION

    Secretary Foxx. Senator, I have to tell you, I want to, 
first of all, thank you for your engagement on this issue, as 
well as Senator Heitkamp, and for attending our call to action 
meeting, which I think was a real leap forward for safety. What 
the rail industry developed in terms of a comprehensive 
response on speed reduction, brake technology, use of our 
HAZMAT routes, greater use of our HAZMAT routes, is a result of 
our conversation. I think all of those things moved more 
quickly because there was cooperation than it would have in any 
other way that we can imagine. And so, for that I want to thank 
you.
    And so, further I think that we have achieved some level of 
consensus as it relates to the rail community. Now, we still 
would like to have more data from the shippers, from API, from 
the oil industry. I think that would be enormously helpful to 
us as we focus on what a comprehensive response should be.
    And this is an ongoing process. We are working on the tank 
car standard today. We have other measures that we are also 
contemplating, including two-man crews. And there are other 
steps that we are going to take, but it all starts with knowing 
what we are transporting. If we know what we are transporting, 
if we know how to package it, we know how to help first 
responders, we know how to develop a comprehensive approach. We 
just want to make sure we are right.
    Senator Hoeven. And I think you are zeroing in on the right 
thing here because both with the new car standards, tank car 
standards, and retrofit, if you can build that consensus, I 
think that can help expedite the process not only in terms of 
getting to the rule, but in actually then in getting a new 
enhanced fleet out there on the tracks. I think that is 
critically important, and it requires all of those 
constituencies to get on board. So I hope and ask that you are 
continuing to convene that group, that working group, and 
getting them both to consensus and to moving PHMSA and OMB to a 
rule.
    Secretary Foxx. We are working as much as we can to build 
consensus where we can. But there is obviously a tension 
between everyone agreeing and everyone not agreeing and waiting 
forever for an agreement to emerge.
    Senator Hoeven. Right. The process has to move.
    Secretary Foxx. And so, in order to keep things moving, we 
are going to keep pushing and try to get consensus to the 
extent we can. Where we cannot, we are going to act as quickly 
as we can to make sure we are keeping the public safe.
    Senator Hoeven. On the resources issue, inspectors for FRA 
for PHMSA, have you detailed to the committee what you need in 
terms of additional inspectors and other resources, what you 
think the safety--you know, to meet the safety requirements?

                 SAFE TRANSPORT OF ENERGY PRODUCTS FUND

    Secretary Foxx. There are two parts to that question. The 
President's framework for reauthorization has in place 
additional inspectors, additional ones for PHMSA, for rail, and 
even for FMCSA (Federal Motor Carrier Safety Administration). 
And those are specific needs that cut across not just crude oil 
shipments, but just in general making sure we have the right 
number of inspectors and so forth.
    In addition to that, there is the $40 million allocation 
for the Safe Transportation of Energy Products and we believe 
that that is necessary because we have already found in the 
last 8 months where one agency has a pool of resources for 
inspections, or for testing, or what have you, and the other 
agency does not. But the other agency's jurisdiction is the one 
that we have to proceed under. And so, we have gotten into some 
issues with our modes having the right resources. And because 
we are dealing with an emerging situation, an emerging and 
dynamic industry, we feel like some flexibility is required 
right now.
    Senator Hoeven. All right. And as a member of the 
Appropriations Committee, I want to make sure we understand 
what it is you need and that we are working to that objective.
    Secretary Foxx. Sure. Yes.

                         POSITIVE TRAIN CONTROL

    Senator Hoeven. Have you weighed in with the FCC (Federal 
Communications Commission) on positive train control because we 
are concerned--we understand that is a vital safety feature, 
and we are concerned about getting it deployed. So have you 
weighed in with FCC?
    Secretary Foxx. We have. I met with the previous acting 
chair of the FCC. I have also spoken to the current chair of 
the FCC about these issues, and our staffs are talking all the 
time. That is absolutely going to be and is an issue with 
getting PTC implemented quickly.
    Senator Hoeven. Do you feel the timeline is achievable, 
that we are going to get the help from FCC to achieve the 
timeline?
    Secretary Foxx. My instructions to our agency have been to 
do everything we can to ensure that that deadline is met. I 
will tell you we are hearing from industry that many of the 
class one railroads are feeling very challenged by that 
timeline.
    Senator Hoeven. If I might beg indulgence from the chair, 
just one final question for Chairman Hersman. Again, thank you 
for the information that you provided to us. You have been 
tremendous and forthcoming. My questions to you would be, do 
you weigh in or have you weighed in at all on positive train 
control, and what other recommendations would you have to 
advance this safety process that we are talking about here this 
morning?
    Ms. Hersman. Are you talking about just for PTC or in 
general?
    Senator Hoeven. First, I just want to know if you--well, 
first, PTC and then any other recommendations that you feel 
would be helpful as we work to achieve this--you know, a new 
safety--comprehensive safety plan.
    Ms. Hersman. The NTSB has made recommendations about 
versions of positive train control actually dating back to the 
1970s. When we established our most wanted list of 
transportation improvements in 1990, positive train control was 
on it, and it is still on our most wanted list. We are 
disappointed about the discussion of delays for PTC. Safety 
delayed is safety denied. Every day that we do not do something 
is another day that we are vulnerable and we are exposed to 
risk.
    We have had conversations also with the FCC. There are 
challenges, but we know there are some railroads that will meet 
the deadline, and some that will meet the mandate for a 
majority or a portion of their system. It is important to 
continue to hold people's feet to the fire, whether it 
government or industry, to make sure that this critical safety 
improvement happens.

                         IMPROVING RAIL SAFETY

    Senator Hoeven. Just any other recommendations to add to 
the discussion we just had in terms of a comprehensive solution 
on safety.
    Ms. Hersman. We have discussed that rail safety is a multi-
pronged approach. We must focus on preventing the accidents. 
PTC is certainly an important part of that solution.
    We also must prevent derailments that are due to track 
defects. You have seen our investigation of the broken axle 
that was included in the Castleton event. That is an equipment 
defect, and we need to make sure that we are trapping those 
failures and those errors before they result in a catastrophic 
event. More needs to be done on the prevention side. If we did 
not have derailments and collisions, we would not be talking so 
much about tank car integrity. Keeping the trains safely on the 
tracks is really important. That is the first step.
    When we talk about the packaging--the tank cars that they 
are moved in--we must establish better standards. What we have 
now is ineffective. There are a lot of folks in industry who 
are willing to move ahead, but they are hesitant to do that 
without specific standards. They do not want to build tank cars 
that will be obsolete. Therefore, it is important for the DOT 
standard to come out to give people some certainty with respect 
to building these cars.
    And the third piece of it is the response side. We believe 
that we should have to have one level of safety, whether 
products are being moved on the water, through pipelines, or on 
the rail when it comes to the communities that are affected. We 
must have better emergency response plans, and that means 
support for the communities through which these unit trains 
travel. No community is prepared for a worst case event.
    Senator Hoeven. Thank you, Chairman.
    Senator Murray. Thank you very much. I just have one more 
question on this topic and another one, Mr. Secretary, for you 
while you are here. We will turn to Senator Collins. And our 
vote is going to occur fairly quickly here, so I ask the second 
panel to indulge us on that.
    But, Secretary Foxx, you talked with Senator Johnson about 
this issue. We are really seeing in my State the delays. Grain 
shippers and manufacturers are reporting disruptions due to 
this congestion. I am hearing from manufacturers in Snohomish 
County who do not know if they are going to get the parts they 
need to get the products that they are developing out.
    I know the Surface Transportation Board has responsibility, 
and there is going to be a hearing on this, as was mentioned, 
tomorrow. But I wanted to ask you, as FRA imposes some speed 
limitations to address safety concerns on crude shipment, it is 
going to have an impact on other businesses. Are you 
coordinating your safety oversight with their efforts?
    Secretary Foxx. Yes, we are.
    Senator Murray. So you are talking directly to them.
    Secretary Foxx. Yes.
    Senator Murray. Okay. We will be following up on a lot of 
the other discussions on this. Obviously it is very critical to 
this committee and to all of us that we get the safety issues 
right.

      UNITED STATES MERCHANT MARINE ACADEMY SEXUAL ASSAULT SURVEY

    But, Mr. Secretary, I wanted to talk to you while you were 
here about sexual assault and harassment at the merchant marine 
academy. And if my colleagues will indulge me, I want to take a 
minute on that. I know it is not within the scope of this 
hearing, but it is a very serious problem that has got to be 
addressed.
    You came before this subcommittee last month. We talked 
about the very troubling results of the 2009 sexual assault and 
harassment survey at the academy. That year, in 2009, students 
reported seven assaults and 22 cases of harassment. Less than 
half of the faculty and staff surveyed felt that the academy's 
senior leadership fostered a climate intolerant of sexual 
assault.
    Well, I have just now seen the report for 2011-2012 school 
year. It is very disturbing. It says during that school year, 
there were an estimated 25 sexual assaults and an estimated 136 
incidents of sexual harassment. That is more than seven times 
the total number of harassment cases for all of the military 
academies combined, and it really is appalling. And almost as 
troubling is the fact that there is no record of these 
incidents being reported to academy officials. Clearly students 
there lack confidence in their leadership.
    I am really floored and appalled by these results. I want 
to know what is going on here and what steps you are taking to 
change that culture so that faculty and students know that this 
will not be tolerated.
    Secretary Foxx. Senator, I am troubled by the report as 
well. And when we last talked about this, you specifically 
asked me when the report would be produced, and I promised it 
to you in 2 weeks, and we met that target. But the statistics 
and the information is alarming.
    I would point out that the information that you received 
covers years prior to the steps that were undertaken to change 
conditions at the academy, steps that included hiring a sexual 
assault prevention and response coordinator, implementing a new 
campus-wide sexual assault prevention training, upgrading the 
academy security system, and establishing a 24/7 hotline. There 
have been many other steps that have been taken.
    And I will have to tell you that my great hope is that as 
we get reports in successive years about how these new steps 
are being taken and received and handled on the campus, that my 
expectation is that we will see reporting where an incident 
occurs, followed by an effective response from the 
administration. I would also suggest that in the coming weeks 
that we as a Department work to schedule some time with you and 
other interested members of the committee to meet with Admiral 
Hellis, who runs the U.S. Merchant Marine Academy. I would be 
happy to attend that meeting as well.
    This is a very serious issue. We take it seriously, and we 
are going to take steps to get this right.
    Senator Murray. This has to be a top priority.
    Secretary Foxx. Yes, it is.
    Senator Murray. I do not want to wait for a year for 
another report to come out and things are still happening. I 
want you to know this subcommittee is going to do a deeper dive 
into this matter, and I know I can count on your full 
cooperation.
    Secretary Foxx. Yes, absolutely.
    Senator Murray. So we will be following up on this. Thank 
you for your indulgence on that.
    Secretary Foxx. Thank you.
    Senator Murray. Senator Collins.
    Senator Collins. Thank you, Madam Chairman, and I want to 
second your remarks and join in expressing my concern as well.
    Secretary Foxx, my last question for you other than some I 
may submit for the record, I want to talk about the 
preparedness piece. I spent many years as either the chairman 
or ranking member of the Homeland Security Committee, so I am 
very prepared--very familiar with the programs like the fire 
grant program and the SAFER Act that help to boost the 
capabilities of our brave first responders, particularly our 
firefighters, in rural America. It is my understanding that the 
Department of Transportation also has emergency preparedness 
grants for local communities, and indeed provides about $28 
million annually for planning and training.
    In 2012, however, the Inspector General criticized the 
Department for its poor management and oversight of the 
program's expenditures and said that its effectiveness in 
helping emergency responders was not what it should have been. 
It is particularly troubling to me when I see those vast needs 
for equipment and training and planning in rural communities in 
my State where you have such brave men and women stepping 
forward to be our first responders, that an average of 76 
percent of the recipients did not use all of their funding, and 
that some $13 million was returned back to DOT.
    Now, I can tell you if I ask the chief could you have used 
an emergency planning grant, he undoubtedly would tell me yes. 
In fact, if I asked the chiefs of any of those small fire 
departments that came to the rescue in the train derailment in 
Canada, they all would say that they are starved for resources 
because of budget constraints.
    So what actions is the Department doing to do a better job 
of making sure that that money is getting out there and that it 
is being used to strengthen preparedness? What is going on when 
the needs are so great that so much of the money, an average of 
76 percent, is not being spent?

                     EMERGENCY PREPAREDNESS GRANTS

    Secretary Foxx. Senator, I would like to submit for the 
record on the current response of the Department to your 
question.
    [The information follows:]
                     Emergency Preparedness Grants
    PHMSA's Emergency Preparedness grants have funded an average of $21 
million in planning and training grants each year since fiscal year 
2008. On average, grantees haven't been able to use about 19 percent, 
or $4 million, of these grants annually and have returned the funds to 
PHMSA. The result has been that at the end of 2012, the Emergency 
Preparedness Grant Fund, which contains the cash balances of these 
fees, had about $13.1 million in prior year balances of grant funds and 
fees collected. To reduce the balance, PHMSA refunded and lowered 
registration fees for registration year 2013-2014.
    The percentage of grants being returned has been falling. For 
example, in fiscal year 2008, grantees used 79 percent of awarded grant 
funds. In fiscal year 2011, however, grantees used 85 percent of their 
awards. PHMSA continues to closely monitor the use of grant funds to 
ensure that grant funds are used effectively and efficiently. PHMSA is 
actively working with grantees to increase accountability and maximize 
the use of funds towards program objectives.
    PHMSA believes that there are several key factors that inhibit 
grantees from completely expending their HMEP awards: (1) the period of 
performance is insufficient to expend all funds within 1 year; (2) the 
payout structure of the HMEP grant forces grantees to spend their own 
State and local funds first before receiving their Federal share 
through reimbursements; and (3) adjustments to improved grant 
oversight. In addition, other factors such as the inability to award 
supplemental funds and the fiscal sequesters have contributed to the 
high unexpended balance.
    Period of Performance.--Grantees have 1 year to expend their HMEP 
awards. This relatively short performance period has proven to be 
burdensome on grantees since they must replicate their own solicitation 
process to pass through planning funds to Local Emergency Planning 
Committees (LEPCs). The pass through requirement results in an even 
shorter performance period increasing the likelihood that a portion of 
the funds will remain unexpended. A multiyear grant cycle which would 
allow grantees more time to expend their HMEP grant awards would help 
address this issue, as would elimination of the pass-through 
requirement. By doing so, grantees would have more time to utilize HMEP 
awards and avoid the administrative burden of hosting its own 
solicitation process.
    Payout Structure/Reimbursement Process.--The HMEP program makes 
grant payment by way of reimbursement. Hence, grant recipients can only 
drawdown funds after expenses have been incurred. This forces grantees 
to use their own limited funds to carry out training and planning 
activities before seeking reimbursement. In cases where the State or 
local government does not have funds available to utilize prior to 
reimbursement, the grantee will not have access to its award. In such 
cases, planning and training funds remain unexpended due to the limited 
State and local resources.
    Increased Oversight.--Enhanced oversight of grantees in response to 
the OIG recommendations has encouraged grant applicants to better 
evaluate their own programs and grant expenditures. An initial result 
of this effort has been a reduction in the amount of grant funds 
actually utilized by some grantees as they adjust to the changes. To 
better assist grantees, PHMSA has updated it guidance on allowable 
expenditures which informs grantees of the various uses of the HMEP 
planning and training grants.
    Non-Grantee Factors.--The high unexpended balance is also a result 
of the program's inability to use returned funds to redistribute to 
other grantees. Each year, the program receives requests from grantees 
that require more funding, but are unable to award those funds due to 
certain constrictions that disallow a supplemental award process. As a 
result, these unexpended funds remain restricted once the fiscal year 
has ended. A supplemental award process would address this issue. This 
would allow disbursement of funds to grantees with a proven need for 
supplemental emergency response funding.
    Finally, the fiscal year 2013 and fiscal year 2014 sequester have 
automatically reduced the amounts PHMSA can award to grantees. Despite 
the fact that the funds were available and fully funded by user 
registration fees, the fiscal year 2013 and fiscal year 2014 sequesters 
restricted the Program's ability to access these funds since the EP 
grant is a non-exempt nondefense mandatory program. Because these funds 
are collected but can't be disbursed due to sequestration, it will add 
about $4 million to the unexpended balance.

    Secretary Foxx. But I would like to preface that by saying 
a couple of things. First of all, the world has changed 
dramatically as it relates to the transportation of energy 
products in this country. And as a Department, part of my 
leadership at this point is to say to our team we have to mine 
every resource that we have available to ensure that they are 
being used to the maximum extent to ensure the safety of the 
American public. And if we have programs such as the ones that 
you were just describing that are being underutilized or not 
being used to the fullest extent to ensure the safety of these 
products and the emergency responders and so forth, it is 
incumbent upon us to fix that and ensure that we are making the 
most use of those resources.
    But if we are able to have the response to the budget 
proceeding that we would like to have, which is the $40 million 
allocation we have talked about, one of the outcomes of that 
would be a comprehensive report on how DOT as an agency can 
strengthen our safety oversight of energy products around, and 
that would include mining every single resource we have and 
ensuring that we are using those resources to the fullest 
extent.
    But you have my promise that following this conversation, I 
am going to go back to my team and ensure that we are doing 
every single thing we can to make effective use of those 
resources.
    Senator Collins. Thank you.
    Senator Murray. Mr. Secretary, thank you very much, and we 
will continue to follow this very closely with you. Chairman 
Hersman, thank you so much for being here today, for your 
recommendations, and for your long-time service. As you noted, 
you have been to my State during a number of tragic times, most 
recently obviously with the Skagit River Bridge. But we met 
first, as you mentioned, when an oil pipeline burst in the town 
of Bellingham, and 300 young kids were killed in that. So you 
have been doing this a long time. We wish you the best in your 
future. But thank you so much for your service to our country 
as well.
    Senator Collins. I would echo that. Thank you.
    Senator Murray. With that, we do have a vote that is going 
on, so I am going to go into recess, and I would just apologize 
to our second panel. We will take a short break while we go 
vote, and we will be back shortly for your testimony and your 
questions.
    [Recess.]
    Senator Murray. We will reconvene this hearing. Again, I 
want to thank both of our witnesses for your patience. I want 
to welcome from my home State of Washington Barbara Graff. She 
is the director of the Office of Emergency Management for the 
city of Seattle. I know the city and our State are working on 
many new initiatives to address the growing HAZMAT traffic. I 
thank you for making the trip all the way out here to share 
your experiences and recommendations.
    And I also want to welcome Chief Tim Pellerin of Rangeley, 
Maine. Chief Pellerin, I understand you responded to the Lac-
Megantic accident and saw the destruction firsthand--Senator 
Collins shared with all of us earlier--60 miles from your 
hometown. We look forward to the lessons you learned from that 
experience and what insights you have to protect our 
communities as well. And I join Senator Collins in welcoming 
both of you to this committee.
    With that, we will go to your testimony and have some 
questions. And, Ms. Graff, we will begin with you.
STATEMENT OF BARB GRAFF, DIRECTOR, CITY OF SEATTLE 
            OFFICE OF EMERGENCY MANAGEMENT
    Ms. Graff. Thank you. Chairman Murray, Ranking Member 
Collins, members of the committee, good morning, and thanks for 
the opportunity to talk today about safety concerns related to 
the shipment of hazardous materials by rail, specifically crude 
oil.
    My name is Barb Graff. I have been an emergency management 
director for 24 years, the last nine of those for the City of 
Seattle Office of Emergency Management. I also currently chair 
the National Emergency Management Accreditation Program 
Commission.
    Before I go further, I would like to thank Senator Murray, 
Senator Cantwell, Representative DelBene and staff for your 
response to the mud slide north of us in Snohomish County. That 
disaster brings into sharp focus the necessity for emergency 
response systems and the ability to have worked together before 
a disaster hits so that our response is equal to the scale of 
the disaster. Thank you.
    Seattle is the largest city in the Puget Sound--635,000 
residents, a half million jobs, a thriving maritime and 
industrial sector, an active port, an extensive rail network 
that runs right through the city. The region's transportation 
systems have become more congested and tightly interdependent.
    Two major freight carriers operate in Seattle, BNSF and 
Union Pacific. They each operate rail yards to support shipment 
of goods through the Port of Seattle. All yards are located in 
large, flat areas which ironically are identified as earthquake 
liquefaction zones. The tracks run south from the Port of 
Seattle, travel by two major sports stadiums through a tunnel 
under downtown Seattle, and along Puget Sound through 
residential neighborhoods and parks. This route is particularly 
prone to landslides and storms coming off the Puget Sound.
    According to the U.S. Department of Transportation, areas 
up to one-half mile or more are considered vulnerable following 
an accident. An incident requiring warning, evacuation, or 
rescue could easily affect tens of thousands of people in 
densely populated areas of Seattle.
    Responsibilities of government when accidents occur include 
public warning, evacuation, fire suppression, hazardous 
material containment, decontamination, rescue, sheltering, and 
providing vital information about the incident.
    Currently, there are approximately three train shipments 
per week in our area. Once permits are approved and increased 
refining construction is completed, the volume could easily be 
as many as 3 to 11 trains per day. The most effective 
investment is in mitigation. Stronger transport vehicles, 
slower speeds through densely populated areas, strict adherence 
to rules about properly labeling what is carried in the cars, 
and meaningful penalties for not abiding by regulations.
    Seattle Mayor Ed Murray recently signed a resolution 
adopted by our council relating to petroleum transport by rail. 
It urges the disclosure of volumes, frequency, and content of 
petroleum products. It asks for aggressive phase-out of older 
model tank cars. It requests restricting shipment of these 
products until the cumulative environmental and safety impacts 
are sufficiently studied and addressed. The State legislature 
has enacted a similar measure.
    I would recommend that the Federal Railroad Administration 
take a similar action and identify nationwide those areas where 
the combination of increased transport of oil, identified 
vulnerabilities to natural disasters, population densities, and 
security vulnerabilities intersect. This will help inform 
policymakers about where disaster mitigation funding should be 
spent and where the rail companies themselves should take 
action.
    Another recommendation specifically for earthquake prone 
areas like the Pacific Northwest is to invest in early 
earthquake warning systems. These systems make communities 
safer by sensing earthquakes at their source and literally 
radioing ahead that seismic waves are on their way. Warning 
systems can be used to safely and automatically halt 
transportation like trains, traffic, and elevators.
    All of this speaks directly to the need for robust 
emergency management programs at the local level. We know that 
Congress has long sought better measurements of the country's 
preparedness to deal with emergencies like those suffered by 
Castleton, North Dakota.
    I respectfully offer you the professional yardstick of the 
Emergency Management Accreditation Program standards. In the 
same manner as FEMA has funded cooperative agreements to study 
the viability of State emergency management programs, we could 
do the same thing by entering into a cooperative agreement to 
study 50 to 100 of the largest cities and counties, most 
populous where oil train traffic is expected to increase 
dramatically.
    In conclusion, the safety of our public must always be our 
chief criteria for measuring the cost and benefit of increasing 
hazards. Allowing adequate time for local, State, and Federal 
emergency planning to address these impacts is critical.
    In the Pacific Northwest where rail lines travel oil over 
soils susceptible to earthquakes, an early warning like those 
used in Japan to slow or stop passenger trains would be a wise 
investment with benefits that mitigate more than just train 
accidents. The tool to measure the adequacy of local emergency 
management programs exists in the Emergency Management Program. 
Please support FEMA in extending a cooperative agreement with 
EMAP to assess the adequacy of local emergency management 
programs at the city and county level.
    Thank you for your time.
    [The statement follows:]
                    Prepared Statement of Barb Graff
    Chairman Murray, Ranking Member Collins and members of the 
subcommittee. Good morning and thank you for the opportunity to testify 
here today. My name is Barb Graff. I am the Director of the city of 
Seattle, Washington Office of Emergency Management. The city's Office 
of Emergency Management serves as an interdisciplinary cross-
departmental organization that partners with the community to prepare 
for, respond to, and recover from disasters. We work in partnership 
with our colleagues in the King County Office of Emergency Management 
and the State Office of Emergency Management.
    I have been the Director of Emergency Management at the city for 
the past 9 years and before that was the Director of Emergency 
Management for the neighboring city of Bellevue for 15 years. I am 
currently a member of the International Association of Emergency 
Managers and the Chair of the national Emergency Management 
Accreditation Program Commission.
    The city's Emergency Operations Center was built in 2008 and serves 
as the coordination hub for any emergency response for the city. We 
have activated the Seattle Emergency Operations Center 13 times for 
major full-scale exercise during my tenure and 29 times for 
emergencies--6 of which were large enough to be presidentially-declared 
as disasters.
    Thank you for the opportunity to be here today to speak with you 
about the impact and safety concerns related to the shipment of 
hazardous materials by rail, especially crude oil.
    Before I go further, I want to take this opportunity to thank 
Senator Murray, Senator Cantwell, Representative DelBene and their 
staffs for their response to the recent mudslide in Snohomish County. 
This disaster brings in sharp focus the necessity to have adequate 
emergency response systems in our region and the importance of working 
closely before a disaster hits, so that the response is equal to the 
scale of the disaster. Seattle has sent more than 70 people over the 
short course of this disaster to help with rescue operations, planning, 
logistics, public information and disaster relief.
              rail traffic through the puget sound region
    Seattle is the largest municipality in the Puget Sound region, with 
almost 635,000 residents and 502,000 jobs. Unlike some other west coast 
cities, Seattle is still blessed with a thriving maritime and 
industrial sector with an active port and extensive rail network that 
runs right through the city. Seattle's, and the region's, 
transportation systems have become busier, more congested, more tightly 
interdependent and lacking in substantial reserve capacity. Disruptions 
in one part of the system can produce large consequences far from the 
site of the disruption.
    Two major freight carriers operate in Seattle--BNSF and Union 
Pacific. They each operate intermodal rail yards to support shipment of 
goods through the Port of Seattle. All the yards are located in large 
flat areas that are identified liquefaction zones, meaning during a 
major earthquake we can expect the land in the area to become 
liquefied.
    The tracks themselves run north and south through the city. From 
the Port of Seattle north, the tracks travel by both Safeco Field, home 
of the Seattle Mariners, and Century Link Field, home of the Super Bowl 
Champion Seattle Seahawks. The tracks then travel through a tunnel 
under downtown Seattle and along Puget Sound through residential 
neighborhoods and parks. This route is particularly prone to landslides 
and storms coming off the Puget Sound.
    To the south the tracks travel through the Lower Duwamish Waterway 
and head inland until they pass Tacoma where they run along the Puget 
Sound. (See the rail map below.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Late last month, the city released its update to the Seattle Hazard 
Identification and Vulnerability Analysis (SHIVA) which identifies 18 
separate hazards to which the city is vulnerable. Among those hazards 
are transportation incidents and hazardous materials incidents. When 
combined with some of the other hazards identified in the report, 
including earthquakes, storms and landslides, our rail network is 
particularly vulnerable to a catastrophic incident with consequences 
throughout the region. With the anticipated increase in train traffic 
transporting crude oil through Seattle, having an adequate and 
appropriate plan to mitigate for and respond to these types of 
incidents is becoming even more imperative. http://www.seattle.gov/
emergency/publications/#s
    Regional emergency management representatives have met with 
representatives of BNSF to discuss the increase in crude oil freight 
movement. BNSF emphasized with us the safety systems they have 
implemented (track monitors, hazardous materials teams, ordering newer 
model rail cars, lowering of speeds, landslide mitigation, placarding, 
etc.), but also clearly indicated that they are regulated by the 
Federal Government, so State and locals have little, if any, ability to 
regulate these types of shipments. While we appreciate efforts being 
made by the freight rail lines, we are concerned about the possible 
regulatory gaps that might exist.
              impacts from a potential oil train incident
    The crude oil coming through Seattle is from the Bakken reserves in 
North Dakota. Bakken crude oil is highly flammable and easily ignited 
at normal temperatures by heat, static discharges, sparks, or flames. 
Vapors may form explosive mixtures with air, and vapors may travel to 
source of ignition and flash back. Vapors may spread along the ground 
and collect in confined areas such as sewers and tanks.
    According to the U.S. Department of Transportation, areas up to 
one-half mile or more from an accident site are considered vulnerable. 
An incident requiring warning, evacuation or rescue could easily affect 
tens of thousands of people in densely populated sections of Seattle.
    Responsibilities of local government when accidents occur on 
railways include public warning, evacuation, fire suppression, 
hazardous material containment, decontamination, rescue, sheltering and 
keeping an information starved community fed--to name a few.
    Cascading consequences of an oil train accident include:
  --loss of life;
  --destruction of property;
  --risk to first responders;
  --environmental degradation;
  --economic damage to the region; and
  --decreased community confidence in government's ability to protect 
        public safety.
    According to an Emerging Risk Task Force of the Region 10 Regional 
Response Team and Northwest Area Committee, ``Bakken Crude represents 
new and unique challenges to oil spill preparation and the response 
community in the Northwest owing to their unique characteristics, 
relatively recent and dramatic increase in volumes shipped via new 
routes and transportation methods.'' Furthermore, ``[t]he effectiveness 
of standard oil response equipment and strategies in addressing spills 
of Bakken Crude oils needs to be evaluated and the effects of spills on 
potentially impacted environments need to be available prior to the 
event of spills in order to streamline the process.'' http://
www.rrt10nwac.com/FactSheets.aspx
       federal assistance for emergency preparedness and response
    While this subcommittee does not have jurisdiction over funding for 
homeland security programs, I would like to say a few words about these 
programs. The city of Seattle and the Puget Sound region have been the 
recipient of several Department of Homeland Security (DHS) grants. The 
city is grateful to receive Emergency Management Performance Grant 
funds that support 3 of the 13 people in the Office of Emergency 
Management. These staff members coordinate training, drills and 
exercises, and conduct hazards analysis, geographic information system 
(GIS) mapping, and emergency planning. In addition, the Puget Sound 
region is eligible to receive Urban Area Security Initiative grants 
based on risks and consequences within the urban area. We work 
collaboratively with our regional partners to identify our priorities 
for funding and have used these funds to buy first responder personal 
protective equipment, conduct structural collapse and specialized 
operations training, plan for the needs of vulnerable populations, and 
educate our public on how to be disaster ready, etc. These grants are 
critical to our level of preparedness and response to any disaster and 
it is absolutely imperative that these grants continue to be 
administered on a risk-based approach. The administration has proposed 
to change the administration of these grants to create the National 
Preparedness Grant Program which would leave overall coordination of 
the grant programs to the States. Such a move disregards the unique 
security needs of urban areas such as train accidents impacting tens of 
thousands of people or the interest that terrorist organizations or 
lone wolf actors might have in exploiting security vulnerabilities in 
an urban environment.
          local preparedness and response to oil train hazards
    At some point though, we cannot buy our way into adequately 
equipping our first responders into standing ready to deal with the 
increasing risk and impact associated with rail accidents like those 
experienced in Canada and North Dakota. Currently, there are 
approximately three train shipments per week in our area. Once permits 
are approved and increased refining construction is completed, the 
volume could be as many as three trains per day. Petroleum trains 
normally consist of 80-100 tank cars nearly a mile long. The more 
effective investment is in mitigation--stronger transport vehicles; 
slower speeds through densely populated areas; strict adherence to 
rules about properly labeling what is carried in the cars and 
meaningful penalties for not abiding by regulations--penalties that 
should fully compensate the actual loss to a community incurred in 
accidents; people, first responders, and environmental reparation.
    Seattle Mayor Ed Murray recently signed a resolution, sponsored by 
Councilmember Mike O'Brien and adopted by our city council related to 
petroleum transport by rail through Seattle and Washington State 
(http://clerk.seattle.gov/legislativeItems/Resolutions/Resn--
31504.pdf). The resolution:
  --Urges the disclosure of volumes, frequency, and content of 
        petroleum products transported by rail;
  --Asks for aggressive phase out of older-model tank cars;
  --Requests restricting shipment of these products through 
        particularly vulnerable parts of our urban core until the 
        cumulative environmental and safety impacts are sufficiently 
        studied and addressed; and
  --Requests that the Seattle Office of Emergency Management and the 
        Seattle Fire Department review, and if needed, update the 
        city's incident response plans for the increasing risk imposed 
        by the transport of petroleum by rail and report back by June 
        20, 2014.
    The first version of the resolution follows. This version was not 
adopted.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our Office of Emergency Management and Seattle Fire Department are 
pulling together this report and we would be happy to share the 
findings with you once it is completed.
    The Washington State legislature recently took action to study 
these trains as well. In the Supplemental Operating Budget passed 
during the most recent legislative session, the Washington State 
legislature funded a $300,000 study of oil shipments through Washington 
State. The State Department of Ecology study will assess public health 
and safety as well as environmental impacts associated with oil 
transport. The study must provide data and analysis of statewide risks, 
gaps, and options for increasing public safety and improving spill 
prevention and response readiness. The department shall conduct the 
study in consultation with the State Department of Transportation, the 
Emergency Management Division of the Military Department, the Utilities 
and Transportation Commission, tribes, appropriate local, State, and 
Federal agencies, impacted industry groups, and stakeholders. The 
department must provide an update to the Governor and legislature by 
December 1, 2014, and a final report by March 1, 2015. We will 
certainly be working closely with the State as they work on their study 
and provide them with the necessary information from our own analysis.
    I would recommend that the Federal Railroad Administration take a 
similar action and identify nationwide those areas where the 
combination of increased transport of oil and already identified 
vulnerabilities to natural disasters, dense populations, and security 
weaknesses intersect. This will then help inform policymakers and 
others about where possible disaster mitigation funding should be spent 
or where the rail companies themselves should take action.
    Another recommendation, specifically for earthquake prone areas 
like the Pacific Northwest, is to invest in earthquake early warning 
systems. These systems make communities safer by sensing earthquakes at 
their source and literally ``radioing'' ahead to say seismic waves are 
coming. Warnings can be used to safely and automatically halt 
transportation like trains, traffic and elevators. Warnings can be 
broadcast to the public to allow people to ``drop, cover and hold on.'' 
Early warning systems work best when the earthquake source is far away. 
They are uniquely suited to the Pacific Northwest because our area is 
subject to huge earthquakes centered offshore. These earthquakes are 
similar to the one that devastated northern Japan in 2011. An early 
warning system could provide coastal communities and the densely 
populated Puget Sound region up to 5 minutes lead time. Early warning 
systems are not a magic bullet for every kind of earthquake. If an 
earthquake happens right under your community the warning time might be 
only a few seconds, but even a few seconds allow a number of automatic 
actions to protect factories, critical lifelines, and computer systems. 
And for the region's largest disaster risk, large offshore earthquakes, 
an early warning system makes a lot of sense.
    The increasing volume of crude oil transport speaks directly to the 
need for robust emergency management programs at the local level. 
Congress has long sought better measurements of the country's 
preparedness to deal with emergencies like those suffered by Casselton, 
North Dakota. I respectfully offer you the professional yardstick for 
measuring accountability of emergency management programs--the 
Emergency Management Accreditation Program (EMAP) standards. In the 
same manner as the Federal Emergency Management Agency (FEMA) has 
funded cooperative agreements with EMAP to assess the viability of 
State and territorial emergency management programs, consider a 
cooperative agreement with the EMAP program to assess the programs in 
the 50 most populous cities and counties through which oil train 
traffic would increase. Congress would get specific metrics on the 
capabilities of local emergency management programs to analyze their 
hazards, plan appropriately, educate their public, engage their whole 
community of stakeholders and most importantly warn and protect their 
public. (See the EMAP Standard at http://www.emaponline.org/
index.php?option=com_content&view=article&id=118
&Itemid=110. Place your cursor over ``What Is EMAP?'' in the top left. 
Click on ``The EMAP Standard'' in the dropdown box. On the next page, 
click the icon on the right for the ``Emergency Management Standard by 
EMAP.'')
                               conclusion
    The safety of our public must always be our chief criteria for 
measuring the cost/benefit of increasing hazards. Allowing adequate 
time for thorough local, State, and Federal emergency planning to 
address these impacts is critical.
    In the Pacific Northwest where rail lines travel over soils 
susceptible to earthquakes, an early warning system like those used in 
Japan to slow or stop their passenger trains would be a wise investment 
with benefits that mitigate more than just train accidents.
    The tool to measure the adequacy of local emergency management 
programs already exists--the Emergency Management Accreditation 
Program. Please support FEMA in extending a cooperative agreement with 
EMAP to assess the most populous cities and counties through which rail 
lines run.

    Senator Murray. Thank you very much. Chief Pellerin.
STATEMENT OF TIM PELLERIN, FIRE CHIEF, RANGELEY FIRE /
            RESCUE DEPARTMENT
    Mr. Pellerin. Good morning, Madam Chairman, Ranking Member 
Collins, members of the committee. I would like to start by 
first saying thank you to both the chairman and Ranking Member 
Collins for inviting me down to testify, and especially to 
Ranking Member Collins for her dedicated and unwavering support 
of the first responders of the State of Maine.
    My name is Tim Pellerin. I am the fire chief of the Town of 
Rangeley, which is located 50 miles west of the capital of 
Augusta in the western mountains of Maine. My department 
consists of 24 paid on-call volunteers. We cover 19 towns, 
townships, and plantations covering over 500 square miles, 
which has a population of 3,300, as well as the 10,000 during 
the recreational seasons.
    In the early morning of July 6, 2013, an oil freight train 
with 70-plus cars, the bulk of which were carrying crude oil 
each containing 44,000 gallons, lost its brakes and careened 
into the village Lac-Megantic. The unmanned train derailed, 
spilling its contents and igniting. The ensuring fire and 
explosions wound up destroying six city blocks, caused millions 
of dollars of damage, and resulted in the fatalities of 47 
people.
    To start from the beginning, at 4 a.m., the Franklin County 
Emergency Management Office in Maine received a call from 
Mutual Aid Assistance from the village Lac-Megantic. I, along 
with seven other Maine fire departments, responded with eight 
pieces of fire apparatus, which consisted of various types of 
equipment, and 30 volunteer firefighters.
    Arriving in Lac-Megantic shortly after 6 a.m., we were 
faced with a true disaster with over 30 buildings on fire, six 
city blocks destroyed, a municipal hydrant system rendered 
completely inoperable due to the oil explosions. In addition, 
there were over 40 tank cars derailed, ruptured, leaking, and 
on fire. We were also faced with about a dozen derailed cars 
that were full, in jeopardy of exploding due to their proximity 
to the cars already on fire.
    After assessing our situation and meeting with our Canadian 
counterparts, we were able to set our two highest priorities. 
The first was to get water to the buildings on Main Street that 
were still burning, and the second was to get water to the 
overheated rail cars before they exploded. We did this by 
utilizing our apparatus and hose and establishing a water 
supply draft from Lac-Megantic over 3,000 feet away.
    For the next 30 hours, apparatus from Maine was used along 
with the equipment from Canada, pumping over a million gallons 
of water in an attempt to contain this fire from spreading and 
doing any more damage. Eight thousand gallons of foam were 
trucked in from a refinery in Toronto to help extinguish the 
burning blaze. By noon time on Sunday, July 7, the burning rail 
cars had been extinguished with the foam. It took over 6 hours 
to finally extinguish all the burning, leaking cars, and by 2 
p.m. Sunday, we had secured our equipment and were cleared to 
return back to Maine.
    As we left this tragic scene, there were hugs, tears, and 
cheers saying thank you to the USA, thank you to the American 
firemen, and thank you for coming to help save our village. We 
arrived in Maine 2 hours later after 30 hours of operation in 
Canada. On the back on our aerial ladder tower truck in 
Rangeley, we had a 3-by-5 American flag secured to a safety 
rail that we had placed there for our Memorial Day parade in 
May. Throughout the weekend, that flag became a point of focus, 
a symbol of help, and a symbol of hope for many Canadian 
firefighters, who often would come up to the truck and ask if 
they could have their picture taken with it.
    After having bonded with our Canadian counterparts during 
those many long and strenuous hours, we invited them to the 
Town of Rangeley in September to reflect on our experiences 
that we had learned together. It was during this event that we 
presented the same American flag that hung on the back of our 
fire truck to our Canadian brother firefighters, the same flag 
that many Canadian firefighters came to realize was their 
symbol of help in their greatest hour of need. It was a 
bittersweet event as we formed a respect and friendship for 
each other, solidifying the firefighter bond of brotherhood and 
proving that this bond knows no borders.
    However, we wish this had never happened and can only hope 
that those who have the power to make the change will do 
whatever it takes to prevent any such disasters in the future. 
The lessons we learned from this tragedy were many, including 
how a disaster such as this can affect a small community in 
many ways. It has affected both the operations and the morale 
of both the local fire department and community, of course, but 
at the same time, it strengthened our bond of friendship and 
brotherhood of our Canadian brother firefighters.
    It is my opinion that a two-sided approach should be taken 
in order to improve and maximize the focus of rail and 
transport safety in America. I believe we need to be proactive 
rather than reactive, as well as being properly trained in 
large-scale disasters such as this.
    First, I feel exactly as Ranking Member Collins stated. We 
need to do planning through enforcement. All the Federal, 
State, and hazardous materials laws must be enforced, 
regulated, and maintained for the rail transportation and 
shipping industry safety. Second, we need to make sure that 
both rail shippers and transporters have adequate plans in 
place so they may respond swiftly and appropriately for support 
during future major spills and disasters to which occurred in 
Lac-Megantic.
    Preparedness, we need to make sure that we develop and 
exercise realistic plans that when put to the test will work on 
all levels, especially the local level for both first 
responders, the rails, the transporters, but, most importantly, 
our citizens. And lastly, first responder large scale disaster 
training. We have got to have realistic large scale hazardous 
materials disaster training--my recommendation is Web-based 
with scenarios--at all levels, including the local levels that 
encompasses hazardous materials response, not just the large 
metropolitan areas, but for the urban and rural departments as 
well. Basically a program that would reach as many first 
responders and their mutual aid partners as possible so they 
can both train and respond to large-scale disasters and events 
with each other.
    In conclusion, it is my belief every fire department in the 
Nation is well prepared and ready to handle the everyday common 
emergencies. However, events such as Lac-Megantic teach us that 
we must work hard to prepare, train, respond to, and recover 
from future and similar events of this magnitude. We need to do 
our due diligence to be sure that whatever future path is 
taken, it leads us to its tangible results with real long-term 
solutions.
    The loss of lives and properties, the despair that we saw, 
the heartfelt thanks we received lays a testament to the fact 
that although our work was well done and appreciated, we must 
do whatever it takes to prevent such an unfortunate event from 
taking place in the future.
    Thank you, Madam Chairman, Ranking Member Collins.
    [The statement follows:]
                   Prepared Statement of Tim Pellerin
    Good morning, Madam Chairman, Ranking Member Collins and members of 
the subcommittee.
    My name is Tim Pellerin. I am the Fire Chief for the Town of 
Rangeley, Maine, which is located 50 miles west of the capital of 
Augusta in the western Maine Mountains.
    The Rangeley Fire/Rescue Department consists of 24 paid on-call 
members and covers 19 towns, townships and plantations, covering 500 
square miles. The area has a year round population of around 3,300 
which swells to over 10,000 during the recreational seasons.
    In the early morning of July 6, 2013 an oil freight train with 70-
plus cars, the bulk of which each car contained 44,000 gallons of oil, 
lost its brakes and careened into the village of Lac-Megantic. The 
unmanned train derailed, spilling its contents of oil and ignited. The 
ensuing fire and explosions wound up destroying six city blocks, caused 
millions of dollars of damage, and resulted in the fatalities of 47 
people.
    To start from the beginning, at about 4 a.m., Franklin County, 
Maine received a call for mutual aid assistance to the village of Lac-
Megantic which is about an hour and a half north of Rangeley, across 
the border in Canada. We, along with seven other Maine fire 
departments, responded with eight pieces of fire apparatus which 
consisted of various types of fire and emergency equipment and 30 
volunteer firefighters.
    As we crossed the Coburn Gore Border crossing into Canada, we could 
see large plumes of smoke from over 30 miles away.
    Arriving in Lac-Megantic shortly after 6 a.m., we were faced with a 
true disaster, with over 30 buildings on fire, six city blocks 
destroyed, and a municipal hydrant system rendered completely 
inoperable due to the oil explosions. In addition there were over 40 
tank cars derailed, ruptured, leaking, and on fire. We were also faced 
with about a dozen derailed rail cars that were full and in jeopardy of 
exploding due to their proximity to the cars already on fire.
    After assessing our situation and meeting with our Canadian 
counterparts, we were able to set our two highest priorities. One was 
to get water to the buildings on Main Street that were still burning, 
and two was to get water to the overheated railcars before they 
exploded. We did this by utilizing our apparatus and hose to establish 
a water draft supply from Lake Megantic, which was over 3,000 feet away 
from the fire scene.
    For the next 30 hours apparatus from Maine was used along with 
equipment from Canada, pumping over a million gallons of water in an 
attempt to contain the fire from spreading any further. In addition, 
8,000 gallons of foam were trucked in from the refinery in Toronto to 
help extinguish the burning rail cars. By 12 p.m. on Sunday, July 7, 
the burning rail cars had been extinguished with foam. It took over six 
hours to finally extinguish all of the burning and leaking train cars 
with foam. By 2 p.m. Sunday we had secured our equipment and were 
cleared to return back to Maine.
    As we left this tragic scene, there were hugs, tears, and cheers 
saying thank you to the USA, thank you to American firemen, and thank 
you for coming to help save our village.
    We arrived back in Maine 2 hours after starting the trip home, and 
having just completed over 30 hours of operations in Canada.
    On the back of the aerial tower ladder truck from Rangeley there 
was a 3' x 5' American flag secured to a safety rail that we had placed 
there for our Memorial Day parade in May. Throughout the weekend that 
flag became a point of focus, a symbol of help and hope for many 
Canadian firefighters, who would come up to the truck to ask if they 
could have their picture taken with it.
    The lessons we learned from this tragedy were many, including how a 
disaster such as this can affect a small community in many ways. It has 
affected both the operations and the morale of both the local fire 
department and community of course, but at the same time it 
strengthened our bond of friendship and brotherhood with our Canadian 
brother firefighters.
    Upon arriving in Canada, we had to overcome many obstacles. First, 
there was no radio communications. Over 80 miles away from our dispatch 
center, we had no way to communicate with them. Our radio frequencies 
were incompatible with those in Canada. In addition we did not speak 
the same language. We were fortunate to find an interpreter within the 
fire department who was able to work with us over the weekend. Fire 
hose couplings also posed a problem as our hoses were not compatible 
with theirs. Much of our equipment was completely different from the 
Canadians fire equipment.
    My conclusions are as follows. It is my opinion that a two-sided 
approach should be taken in order to improve and maximize the focus of 
safety in the transportation of hazardous materials within the United 
States. I believe we need to be both proactive, rather than reactive, 
as well as be properly trained in large scale disasters such as this.
    First off, I feel it's important to be proactive by doing the 
following:
  --Enforcement.--All Federal and State hazardous material laws must be 
        enforced, regulated and maintained for both the rail and 
        transportation shipping industry.
  --Planning.--We need to make sure that both rail shippers and 
        transporters have adequate plans in place so that they may 
        respond swiftly and appropriately for support during future 
        major spills or disasters, similar to that which occurred in 
        Lac-Megantic.
  --Course of Action.--Develop and exercise realistic plans that when 
        put to the test will work on all levels, especially the local 
        level for both the first responders and the rail and 
        transporters of hazardous materials.
    Second, I suggest that we find a way to develop and continue to 
provide integrated and adequate large scale hazardous materials 
disaster training similar to the National Incident Management System 
(NIMS)/Incident Command System (ICS) training we received at all 
levels.
    First Responder Large Scale Disaster Training.--Realistic large 
scale hazardous materials response training, either Web based or hands-
on that encompasses all levels of hazardous materials response, not 
only for the large metropolitan areas, but for the urban and rural 
departments as well. Basically, a program that would reach as many 
first responders and their mutual aid partners as possible, so they can 
both train and respond for large scale hazardous materials events in 
conjunction with each other.
    In conclusion, it is my belief every fire department in the Nation 
is well prepared and ready to handle the everyday common emergencies. 
However, events such as Lac-Megantic teach us that we must work hard to 
prepare, train, respond and recover from future and similar events of 
this magnitude. We need to do our due diligence to be sure that 
whatever future path is taken it leads us toward tangible results with 
real long term solutions. The loss of lives and properties, the despair 
that we saw, and the heartfelt thanks we received lay testament to the 
fact that although our work was well done and appreciated, we must do 
whatever it takes to prevent such an unfortunate event from taking 
place in the future.
    After having bonded with our Canadian counterparts during those 
many long and strenuous hours, we invited them to the town of Rangeley 
in September to reflect on our experiences we had together. It was 
during this event that we presented the same American flag that hung on 
the back of our fire truck to our Canadian brother firefighters, the 
same flag that many Canadian firefighters had their pictures taken 
with, that had ultimately become the symbol of help in their hour of 
need. It was a bittersweet event as we formed respect and friendship 
for each other, solidifying the firefighter bond of brotherhood, and 
proving that this bond knows no borders. However, we wish this event 
had never happened and can only hope that those who have the power to 
make change will do whatever it takes to prevent any such disasters in 
the future.
    It is my sincere hope that you take some of these suggestions 
offered to you this morning, and do what you can to help improve the 
safety of rail transport for the first responders, and help us guard 
the lives of the citizens we serve and protect.

    Senator Murray. Thank you very much, Chief, for that really 
critical testimony. Your firsthand experience makes a huge 
difference. And I share something in common with Senator 
Collins as we are border States to Canada in Washington. And 
people often talk here about border issues, and for us we know 
the people across the border are our friends and neighbors. You 
responded exactly like that, and I just really commend you and 
your entire department.
    Mr. Pellerin. Thank you.

                      LOCAL EMERGENCY PREPAREDNESS

    Senator Murray. Ms. Graff, let me start with you on 
questions. You have a lot of challenges as the director of 
Emergency Management in Seattle. And now this growth of crude 
oil traffic is one more for you to factor in as you plan for a 
lot of different events.
    We are used to seeing energy supplies move by ship and 
pipeline, but with the growing domestic energy production, we 
are going to see a lot more of it moving by rail. According to 
our Washington Department of Ecology, rail shipments of crude 
through our State increased from very modest levels a few years 
ago to over 17 million barrels in 2013, and it is expected to 
triple to 55 million barrels this year.
    Can you talk to us about what the City of Seattle is doing 
to prepare for that increase in the crude oil rail traffic?
    Ms. Graff. Our city council recently passed a resolution 
signed by Seattle Mayor Ed Murray that has asked our Office of 
Emergency Management and our Seattle fire department to analyze 
what that impact is, and we would be happy to share the results 
of that. We have been given until June 20 to take a look.
    We are kind of at the long end of what your line of 
questions asked this morning, though, and that is unless the 
actual product itself can be properly analyzed and, therefore, 
regulated and, therefore, shared with responders, we are still 
waiting for those answers as well.
    Senator Murray. So you need the Department of 
Transportation to get that information as well.
    Ms. Graff. Absolutely. Secondly, I would say it is one 
thing to prepare, and the chief and I were talking about this 
earlier. It is one thing to prepare for 95 percent of the calls 
that a community goes on, and we have adequate emergency 
response for plans for most of the things that we deal on a 
frequent basis, winter storms, et cetera.
    But as we increase the frequency of such a hazard that is 
carried in these cars with the results that we have seen and 
heard about today, it is another to expect local departments, 
whether rural or urban, to have the kinds of materials 
necessarily--the phone to deal adequately with a fire, the 
public warning systems adequate to talk with members of your 
community in danger. There is an imbalance when we increase the 
hazard, but we do not increase the ability of the local 
community to deal with that hazard.
    Those are some of the things that we will be studying and 
providing in a report to our mayor. We would be happy to share 
it with this committee.
    Senator Murray. Okay. Good. I would really like you to do 
that. I appreciate that.

                        OIL SPILL RESPONSE PLANS

    You heard the first panel this morning. There is a debate 
about whether the potential risks of these unit trains of oil 
demand changes and how we approach oil spill response plans for 
the rail industry.
    The NTSB argues that rail carriers would be better prepared 
to mitigate damage if they had comprehensive oil spill response 
plans in place to ensure that the appropriate personnel and 
equipment are available. And as we have seen in some of these 
recent rail accidents, emergency response activities that have 
fallen on local communities are often not equipped for these 
kinds of disasters. I am assuming particularly in rural 
communities. I wanted to ask you, based on your experience do 
you think there should be a more robust spill response mandate 
on rail carriers.
    Ms. Graff. I do, and I was in the community of Bellevue 
when the Wahkiakum County incident happened with Olympic BP. 
And we had infrequent contact with even pipeline carriers 
before that incident, and it is unfortunate that we have to 
wait until after an incident that we wind up disclosing more 
information.
    A comprehensive emergency plan means that we have all 
talked with each other, and we have discussed all the products, 
all the hazards, all the response capabilities, and how we can 
fill any gaps. We cannot adequately measure gaps until we are 
comprehensive in our planning. We are delighted to come to the 
table and do that on a regular basis with many of our community 
members--the American Red Cross, the Coast Guard, the Navy, our 
colleges and universities. We would welcome that opportunity to 
look at a truly comprehensive plan in partnership with the 
railroads.

                            HAZMAT TRAINING

    Senator Murray. Okay. I understand that railroad companies 
have conducted a number of HAZMAT safety training classes 
throughout our State. Do you know whether Seattle has received 
training and equipment resources from the railroads that are 
operating in our----
    Ms. Graff. I know that the Seattle fire department has 
received training. I am not clear as to whether they have 
received any equipment. I would be happy to follow up and get 
back to you.
    Senator Murray. Okay. If you could find that out.
    I know that class one railroads have committed to spending 
$5 million to develop a specialized crude by rail training 
program for our local emergency responders at the 
Transportation Technology Center that is actually in Pueblo, 
Colorado. I know Seattle firefighters have gone through 
hazardous material training there already. Is that training 
easy to access? Have our Seattle emergency responders found 
these to be useful?
    Ms. Graff. Since the program at Pueblo is grant funded, it 
is easy to access. It is not easy to pay for the backfill in 
overtime costs of the firefighters that we send. So we have to 
budget carefully to send the kind of people that we hope learn 
the material, come back, and act as trainers to the remainder 
of the department.
    Senator Murray. Thank you. Chief Pellerin, your testimony 
was very moving. I cannot imagine what it was like for you to 
get that call and for your volunteer fire department to respond 
to that.
    I wanted to ask you, during your response at that incident, 
how helpful was the local railroad? Did they provide any 
assistance with the actual emergency effort? Did they clarify 
what product was being loaded into those cars, anything like 
that?
    Mr. Pellerin. Madam Chairman, as of 2 weeks ago, we learned 
the cars were placarded incorrectly and identified as the wrong 
product, number one. Number two, on Saturday afternoon, three 
representatives from the rail industry showed up and took 
pictures and left. It was up to us with the Canadian 
counterparts in the Incident Command Group to determine that 
foam was the best applicable extinguishing agent. We had to get 
the foam. And it virtually was the Canadians' Incident Command 
System that determined that the best approach was to get 8,000 
gallons of foam from Toronto, 7 hours away from the refinery. 
That was not the plan of the rail company. That was the plan of 
the Incident Command System.
    This clearly identified that there was a failed--it was 
fail in place. There were no preemptive plans to help us to 
help Lac-Megantic and them, and for the Emergency Management 
System, planning is the big piece of this. We need to enforce 
planning because to wait for the 9-1-1 call to come in, it is 
way too late.
    Senator Murray. And you are there, and you do not know what 
you are dealing with in that car.
    Mr. Pellerin. Absolutely. And, you know, that particular 
day, and I was speaking to some of the firefighters in Lac-
Megantic because them being there first, they told us the 
stories of how the oil ran down the street like hot lava. And 
they actually saw people step out of their homes and be 
vaporized in the oil.
    Senator Murray. Because they did not know what it was.
    Mr. Pellerin. Saw tragic death instantly. We got to, 
therefore, through planning, preparation, and preparedness, 
long before a response, do whatever it takes in America to 
prevent this from ever happening anywhere in our communities.
    Senator Murray. So from your experience as a firefighter, 
is there a difference or something unique about fighting a 
crude oil fire versus some of the other types of fires that you 
face?
    Mr. Pellerin. Absolutely, Madam Chairman. I think the 
biggest part is we are prepared for the residential, common, 
everyday emergencies. We are not prepared for a major disaster 
like this. And when we are, the FEMA regulation says that 
generally, you know, it takes 72 hours before FEMA could come 
in and support in a major crisis.
    But we have got to do something between that 72 hours and 
the first operational period that we are there, the 12 hours. 
Somewhere in between there, somebody has got to help support 
our programs and come in and be our back support, and say to 
us, we are here to help you. We have all the answers to your 
questions. We can provide you this, this, and this.
    That did not happen that day in Lac-Megantic, and there 
needs to be a better preparation, better planning, and better 
response by the oil and rail companies who ship this. And they 
need to be held responsible for that.
    Senator Murray. Thank you very much for your testimony.
    Mr. Pellerin. Thank you.
    Senator Murray. Senator Collins.

                           RAIL NOTIFICATIONS

    Senator Collins. First, let me begin by thanking you both 
for your very helpful testimony. Oftentimes when we have 
hearings in Washington, we will hear from policy experts, 
Cabinet secretaries, as you have seen today. But it is so 
important for us, if we are going to shape the budget 
correctly, make the right policy decisions, to hear from those 
of you who truly are on the front lines. When disaster strikes, 
people in your communities do not dial 202, the Washington, DC 
area code. They dial 9-1-1. And I am so impressed to hear the 
testimony of both of you.
    Chief, your testimony was both riveting and inspiring. It 
was also troubling to hear you say to the chairman that you did 
not get help from the railroads. That is very troubling to me.
    I have a question for both of you, and that is, are you 
informed when hazardous materials are being transported through 
your communities or near your communities? Is there any sort of 
notification process so that you would be alert that there is--
that there are tankers of crude oil that are being shipped by 
rail? Ms. Graff.
    Ms. Graff. We are not.
    Senator Collins. You are not. Chief.
    Mr. Pellerin. Senator Collins, no, we are not. Once a year 
we receive a hazardous materials report of what the companies 
are shipping over, whether it is via the rails, or road 
transportation, or any other type of transportation. But that 
is once a year, and that basically tells us the products, the 
quantities. And we get hundreds of these reports based on how 
much material is shipped through your communities.
    And I can honestly say that that morning I did not take the 
opportunity to run to my office, try to figure out which report 
I needed to grab to take with me to Lac-Megantic to try to 
determine what was burning up there, over a million gallons of 
which was spilled on the ground and burning. It does not work 
that way. We need to have a better response from the rail 
industry, from the shippers who should be responsible for this, 
who can come and help support us in the first operational 
period, the first 12 hours, to help provide us information that 
we need to do our job.
    Senator Collins. I absolutely agree with you. And I was 
shocked to hear you say that the railroad representatives just 
came and took some pictures and then left, and that it was the 
people on the ground who had to figure out where they could get 
foam. And, of course, Toronto is a long ways from this small 
community in Quebec.

                         MUTUAL AID AGREEMENTS

    I am curious whether the fire departments that responded--
there were eight fire departments, I believe, 30 firefighters 
in total from Maine--had mutual aid compacts with one another 
and with their Canadian neighbors.
    Mr. Pellerin. Well, I can tell you specifically when I got 
out of bed that morning at 4:00 and I asked the dispatcher 
where we were going again and they said Quebec, I thought, I 
really probably do not have a mutual aid per se agreement. But, 
Madam Chairman and Ranking Member Collins, let me say this. 
Every firefighter in the Nation and every fire department in 
the Nation, though we may not have a formal agreement, there is 
not one of us that would refuse to go if we were asked to help.
    So I have a formal written agreement with the Franklin 
County Emergency Management Agency, who has a formal agreement 
with Maine Emergency Management Agency, who is part of the EMAP 
emergency response program. I do not know if that covers 
Canada, but I know there was no hesitation from any of my 
volunteers and any of the other seven departments, as well as 
the Franklin County Emergency Management Office that morning.
    We got up, got out of bed, got dressed, grabbed our 
equipment, grabbed our day bags, and we headed north to Canada 
for whatever was waiting for us without any hesitation, and we 
would do it again. We did not have a--I am not sure if there 
was, Senator Collins, but we went, and we would never not go.
    Senator Collins. And that is why I am so proud of our 
firefighters not only in Maine, but throughout the country. 
They always answer the call for help. They do not stand on 
bureaucracy. If someone needs help, you are there, and that is 
what is expected, but thank goodness you are.
    When you arrived in Quebec, and for those who are less 
familiar than those of us who live in a border State, Quebec is 
largely French speaking. Was that an issue for you as far as 
communication? And also, was your equipment compatible with the 
Canadian equipment?
    Mr. Pellerin. That is a real issue that developed when we 
arrived. As you know, Lac-Megantic, that part of Quebec, is 
very French speaking.
    Senator Collins. Yes.
    Mr. Pellerin. And we quickly found when we arrived that 
most--all of us spoke English and unfortunately none of us 
spoke French. We were not able to communicate with them. We did 
find a liaison on the fire department who was able to 
communicate to the command post for us, and we assigned a 
communications officer with him for the weekend.
    So we had no radio communications to our dispatch center. 
We were 85 miles north of that. We had communications with the 
Canadian firefighters because we did not have the same radio 
frequencies, could not speak the same language. Our hose 
couplings did not fit the same. Our equipment was not 
compatible. But through all that, we overcame those barriers, 
found solutions, and made it work so that we could extinguish 
the fire.
    And what we simply did is we had one of our gentleman 
assigned to the--our liaison for the weekend, and when we 
needed something we would call our firefighter on the radio and 
we would tell him. He would relay it to Andre Lefleme, our 
liaison. He would relay it to the French or the Canadian 
command post, and they would communicate it back. And that is 
how we operated for 30 hours.
    Senator Collins. As usual, you figured out a solution there 
on the ground. But I thought there probably would be a language 
barrier given that area of Canada.

                           WEB-BASED TRAINING

    The other issue that you raised was that it would be 
helpful to have some Web-based training programs. Could you 
expand a little bit on that? And, Ms. Graff, if you could talk 
about that as well.
    Mr. Pellerin. Well, and Ms. Graff, my counterpart, 
explained it well. In a full-time department it is the backfill 
of hiring overtime. In volunteer departments, to be able to 
travel out to Pueblo Training Center or any of those places, it 
is really difficult because my volunteers work full-time jobs 
during the week Monday through Friday. And they have families 
and all the other things, so it is really hard. A lot of 
places, businesses, do not give them the time off to go to 
these classes. They have to use their vacation or just not get 
paid. So to travel to go to courses for volunteer rural fire 
departments is really difficult.
    My personal opinion in being in the fire service for 34 
years is that a good Web-based program with table top scenarios 
that we could devise and make--adapt to our local communities 
that we could work with our mutual aid partners either in a 
weekend class or an evening class, would be extremely helpful 
and beneficial to us, I think, because then you could get it 
down to the rural level, the urban levels, and not just the big 
metropolitan areas, because it is not just the big metropolitan 
areas that respond to the calls.
    You can clearly see in the small communities of Oso, with 
that small volunteer fire department, that did not happen in a 
metropolitan area. That happened in a small rural community. 
And who would ever think in your mind that they would ask--call 
the fire department to come dig through the mud to try to find 
people, but they did. In today's world, they will call us for 
everything.
    Senator Murray. Seventy-five feet deep.
    Mr. Pellerin. Yes. So I think Web-based training along with 
some scenarios would be the most beneficial for us.
    Senator Collins. I think that is excellent and one we 
should follow up on. Ms. Graff.
    Ms. Graff. I could not agree with the chief more. Web-based 
training is efficient. It is cost effective. I do think at some 
point when you are dealing with agencies with whom you do not 
work regularly, there is something to be said for the muscle 
memory that you get by training with them in the field. For 
instance, we do a lot of structural collapse training because 
of our earthquake risk in the Pacific Northwest. And it is not 
the firefighters who will operate the cranes and the heavy 
equipment, it is the skilled trade unions. And so, the fire 
department invites in the skilled trade unions to practice 
alongside.
    It is one thing to learn that in a Web-based sort of 
training. It is a whole other to be on the wrong end of a back 
hoe trying to figure out how to collaborate. So I think it is a 
great start, and because it is cost efficient. It is good all 
the way across our country. At some point when we talk about 
specialized resources, we may want to make sure that we are 
doing everything we can to afford firefighters' ability to be 
out there getting that muscle memory training.

                     STATE HOMELAND SECURITY GRANTS

    Senator Collins. Thank you. That is very helpful. Let me 
just make one final comment, and that is the President's budget 
proposes to eliminate FEMA's State homeland security grant 
program. And that was a program that Joe Lieberman and I 
authored many years ago.
    I am very concerned about that because it ensured that 
every State, even rural States, got some minimum amount to try 
to increase their level of preparedness, whether it is for a 
derailment or an earthquake or a terrorist attack. And I think 
it is really a mistake for that program to be eliminated. 
Training is so important, and one of the things that I know 
from investigating the poor response to Hurricane Katrina is 
that a disaster is the worst time to be exchanging business 
cards and trying to figure out who does what.
    So I hope that we can work--it is not under this 
jurisdiction of this subcommittee, but I think that is a really 
important program. And I think the experience the chief has 
talked about just reminds us, as does the experience in 
Washington State, that disasters are not confined to big 
cities. And indeed, the resources to respond are likely to be 
far less available in small communities with on call 
firefighters.
    So I just want to thank you both for what you are doing. 
Chief, your testimony was so eloquent. I felt like I was there 
with you, and I know how grateful our Canadian neighbors are. 
And it is, as Chairman Murray said, part of the wonderful 
relationship we have always had with our neighbors across the 
border to help one another in times of extraordinary need.
    But my thanks to you and your team and the other seven fire 
departments that responded without hesitation--without 
hesitation--to truly a horrific disaster. So thank you for your 
bravery and your service.
    Mr. Pellerin. Thank you.
    Senator Murray. With that, I want to thank both of our 
witnesses--Ms. Graff for coming all the way out here and for 
sharing your experience. Continue to look forward to work with 
you on this critical issue. And, Chief, I want to thank you as 
well.
    As you know, the disaster in my State has re-taught me what 
I know, and our first responders on that scene, those 
firefighters. I was up there again Sunday, 2 weeks after, and 
some of those volunteers and those firefighters had not had one 
day off. They were still up there working. And it is just a 
real tribute to the kind of people who serve our country and 
our fire departments.
    And so, I know that all of you did not question when you 
went up to Canada to fight a fire and continue to do so for 
hours without sleep. Thank you to your entire team and to all 
of our first responders once again.

                     ADDITIONAL COMMITTEE QUESTIONS

    With that, this has been a critical hearing. We will take 
what we learned. There will be a number of our colleagues who 
could not be here today who will be submitting questions for 
the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Anthony Foxx
              Questions Submitted by Senator Patty Murray
    Question. PHMSA has raised concerns about the volatility of Bakken 
crude oil. Are there other shale deposits in the country raising 
similar concerns about volatility?
    Answer. Yes. PHMSA continues its efforts to gather data and 
information across the Nation's new and existing shale plays regarding 
mined liquids and gases.
    Question. Does the shipment of ethanol pose a similar concern?
    Answer. No. Ethanol is a refined product and therefore has 
consistent properties. However, ethanol is still a flammable liquid 
and, due to large volume, can pose a safety risk when shipped in bulk 
by rail.
    Question. In the event of a serious accident, what are the 
differences in emergency response management and recommendations for 
first responders responding to an ethanol spill versus a crude oil 
spill?
    Answer. PHMSA's 2012 Emergency Response Guidebook (ERG) recommends 
similar methods for responding to incidents involving ethanol and crude 
oil. Both are classified as flammable liquids; however, the primary 
difference is that an ethanol fire requires alcohol-resistant foam 
versus regular foam which can be used to distinguish a crude oil fire.
    Question. How is DOT working with other Federal agencies, such as 
the EPA and DHS, to ensure the safety of hazardous materials shipped by 
rail and that States and localities have the information and capacity 
to respond to accidents if they occur?
    Answer. DOT continues to liaison with other agencies to provide a 
more comprehensive approach to ensuring safety of transporting 
hazardous materials by rail. PHMSA is exchanging energy information 
with DOE's Energy Information Administration, specifically on the 
production and commodity flow of crude oil. Additionally, PHMSA's 
outreach campaign is rooted in local communities to ensure they have 
the information and training they need through grant programs, 
workshops, and publications.
    Question. Who is responsible for ensuring effective local emergency 
response in the event of a crude oil train accident?
    Answer. State and local emergency officials are responsible for 
ensuring effective response in the event of a crude oil incident. 
Pipeline and Hazardous Materials Safety Administration's (PHMSA) 
regulations prescribe requirements for offerors and carriers intended 
to assist local emergency responders. For certain trains, rail carriers 
are required to provide information regarding the location of all rail 
cars containing hazardous materials in a train as well as emergency 
response information. This information is intended to enable first 
responders to easily identify rail cars (and the hazardous material) 
involved in a train accident and to develop and execute an effective 
response.
    Regulations also require carriers of petroleum oil to develop and 
implement oil spill response plans intended to prevent and contain 
spills of oil during transportation.
    There are two levels of requirements for response plan: basic and 
comprehensive. The basic plan, required for transporters of petroleum 
oil in a packaging with a capacity of 3,500 gallons or more, must (1) 
set forth the manner of response to discharges that may occur during 
transportation; (2) take into account the maximum potential discharge 
of the contents from the packaging; (3) identify private personnel and 
equipment available to respond to a discharge; and (4) identify the 
appropriate persons and agencies (including their telephone numbers) to 
be contacted in regard to such a discharge and its handling, including 
the National Response Center. The comprehensive plan is more detailed. 
The threshold for the requirements for a comprehensive oil spill 
response plan is a quantity greater than 42,000 gallons per package. 
Currently, there are no rail tank cars with a capacity of over 42,000 
gallons that transport petroleum oil.
    Question. Given that response capabilities may vary across the 
country, particularly in very rural areas, how can we ensure an 
effective response wherever crude oil and ethanol are transported by 
rail?
    Answer. Because effective regulatory action takes time to develop, 
steps have been taken in the interim to ensure effectiveness of 
emergency response through improved awareness and capabilities of 
emergency responders across the Nation. On January 16, 2014, I issued a 
``Call to Action'' challenging all stakeholders, including CEOs of 
member companies of the American Petroleum Institute (API) and CEOs of 
the railroads, to identify prevention and mitigation strategies that 
can be implemented quickly to enhance the safe transportation of crude 
oil by rail. As a result of the Call to Action, on February 21, 2014, 
the Association of American Railroads agreed to, among other actions, 
conduct an inventory of emergency response resources along crude oil 
train routes and share this information with local emergency 
responders, work with communities on key crude oil train routes to 
address location-specific concerns, and provide $5 million to develop 
and provide training on safe hazardous materials transportation. On May 
7, 2014, DOT issued an Emergency Restriction/Prohibition Order 
requiring all railroads that operate single trains transporting 1 
million gallons or more of Bakken crude oil to notify State Emergency 
Response Commissions about the operation of these trains through their 
States. Specifically, railroads are required to provide the number of 
trains per week meeting the 1 million gallon criteria (i.e., 35 tank 
cars) that travel through the State. This information will ensure that 
first responders are aware of the volume and frequency with which 
Bakken crude oil is transported through their communities so that they 
can prepare accordingly.
    The Department also supports first responder training. For example, 
PHMSA provides funding through the Hazardous Materials Emergency 
Preparedness (HMEP) grant to ensure local emergency responders are 
prepared for, trained to effectively respond to, and mitigate the 
consequences of hazmat transportation incidents, such as crude oil by 
rail. Grantees are encouraged to use the grant for developing or 
revising emergency response plans and commodity flow studies to account 
for rail shipments of crude oil and training emergency responders to 
respond appropriately to accidents involving crude oil.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Secretary Foxx, thank you for your testimony regarding 
the Department's work to improve the safe operation of rail cars 
carrying crude oil and other hazardous materials on our rail systems. 
In your remarks you referenced the voluntary steps that the American 
Association of Railroads agreed to take regarding the safe 
transportation of crude oil via rail. What follow up will the 
Department be taking to ensure that these steps are being followed and 
will you recommend mandatory steps if they are not?
    Answer. The Department is taking a number of steps on different 
fronts and will continue to do so when circumstances warrant. On May 7, 
an Emergency Order directed railroads with trains carrying large 
amounts of Bakken crude oil to notify the State Emergency Response 
Commissions (SERCs) of States whose borders they traverse. Over the 
last 10 months, PHMSA and FRA have undertaken more than a dozen actions 
to enhance safety while transporting of crude oil, including safety 
advisories, special inspections, and moving forward to develop a 
comprehensive rulemaking. We appreciate all the voluntary steps that 
industry has taken and agreed to take to improve the safe transport of 
these commodities. However, DOT is also ready to take appropriate steps 
through either its regulatory authority or emergency order authority to 
ensure the safe transport of crude oil.
    Question. Much of your testimony rightfully focused on efforts to 
address safety concerns for the communities surrounding rail systems 
where crude oil is transported. What specific steps is the Department 
taking, on its own, or with other Federal partners, to mitigate the 
potential for accidents that could impact the environment and other 
natural resources?
    Answer. The prevention and mitigation of accidents involving crude 
oil requires a comprehensive approach to the issues that involve the 
tank cars utilized in crude oil transport, the safe movement of the 
tank cars by the railroads, and appropriate and sufficient emergency 
response abilities should a release occur. DOT and the regulated 
community are working together to address each element of this 
comprehensive approach. PHMSA, in cooperation with FRA, is developing a 
comprehensive NPRM that is intended to not only address the appropriate 
tank car design for cars utilized in crude oil transport but to also 
identify various operational requirements to ensure the safe transport 
of crude oil by rail. You can monitor progress at: (http://www.dot.gov/
regulations/report-on-significant-rulemakings).
    The Department has also taken the following actions:
  --In 2010, PHMSA published the final rule to incorporate provisions 
        contained in certain widely used or longstanding special 
        permits that have an established safety record.\1\ As part of 
        this rulemaking, PHMSA permitted the use of alternative rail 
        tank cars upon approval of FRA.
---------------------------------------------------------------------------
    \1\ See Federal Register http://www.gpo.gov/fdsys/pkg/FR-2010-05-
14/pdf/2010-11570.pdf.
---------------------------------------------------------------------------
  --In 2011, FRA issued a notice of approval pursuant to establish 
        detailed conditions for the manufacture and operation of 
        certain tank cars in hazardous materials service, including the 
        DOT-111 unpressurized tank cars.
  --PHMSA received a petition (P-1577) \2\ from the Association of 
        American Railroads (AAR) on March 9, 2011, requesting changes 
        to PHMSA's specifications for tank cars (namely the DOT 
        specification 111 tank car) used to transport packing group I 
        and II materials. In addition, during the summer of 2011, at 
        the AAR Tank Car Committee (TCC) meeting, a task force was 
        created with a dual charge to develop an industry standard for 
        tank cars used to transport crude oil, denatured alcohol, and 
        ethanol/gasoline mixtures, and to consider operating 
        requirements to reduce the risk of the derailment of tank cars 
        carrying crude oil and ethanol.
---------------------------------------------------------------------------
    \2\ See http://www.regulations.gov/#!documentDetail;D=PHMSA-2011-
0059-0001.
---------------------------------------------------------------------------
  --On March 1, 2012 the task force finalized its recommendations. 
        Unfortunately, the task force did not address many of the 
        recommendations provided by PHMSA and FRA. After considering 
        the variation between the various stakeholders and the lack of 
        actionable items by the task force, PHMSA decided to initiate 
        an advanced notice of proposed rulemaking (ANPRM).
  --In May 2012, PHMSA initiated an ANPRM to consider revisions to the 
        Hazardous Materials Regulations to improve the crashworthiness 
        of railroad tank cars. The ANPRM was responsive to Petitions 
        for Rulemaking submitted by industry and recommendations issued 
        by the National Transportation Safety Board (NTSB).\3\The ANPRM 
        was also designed to build and improve upon the findings of the 
        TCC and sought to examine the differences in the DOT approved 
        tank car pursuant to the January 25, 2011 Notice and the tank 
        car proposed in AAR's petition.
---------------------------------------------------------------------------
    \3\ See NTSB recommendations: R-07-4, R-12-5, R-12-6, R-12-7 http:/
/www.phmsa.dot.gov/hazmat/regs/ntsb/rail.
---------------------------------------------------------------------------
  --Between April 2012 and October 2012, PHMSA received four other 
        petitions from concerned communities and various industry 
        associations requesting further modification to the tank car 
        standards. The consideration of these additional petitions 
        delayed the publication of this ANPRM.
  --In 2012, PHMSA's Bakken Field Working Group and FRA's Bakken Rail 
        Accident Mitigation Project were established.
  --On August 2, 2013, DOT issued Emergency Order No. 28, requiring the 
        railroads to properly secure rolling equipment. FRA and PHMSA 
        also published a Safety Advisory recommending railroads take 
        additional action to reduce risk throughout the rail network.
  --In 2013, FRA and PHMSA began an intensified effort in the Bakken 
        oil region to verify that crude oil is being properly 
        classified in accordance with regulations, conduct unannounced 
        inspections, and increase data collection and sampling.
  --On September 6, 2013, PHMSA published an ANRPM to request further 
        information regarding the crashworthiness of railroad tank 
        cars.\4\
---------------------------------------------------------------------------
    \4\ See Federal Register http://www.gpo.gov/fdsys/pkg/FR-2013-09-
06/pdf/2013-21621.pdf.
---------------------------------------------------------------------------
  --On November 14, 2013, PHMSA and FRA issued a safety advisory 
        reinforcing the importance of proper characterization, 
        classification, and selection of a packing group.
  --On January 2, 2014, PHMSA issued a safety alert to notify the 
        general public, emergency responders, shippers, and carriers 
        that recent derailments and resulting fires indicate that the 
        type of crude oil being transported from the Bakken region may 
        be more flammable than traditional heavy crude oil.
  --On January 16, 2014, Secretary Foxx issued a ``Call to Action'' 
        challenging all stakeholders, including CEOs of member 
        companies of the American Petroleum Institute (API) and CEOs of 
        the railroads, to identify prevention and mitigation strategies 
        that can be implemented quickly to enhance the safe 
        transportation of crude oil by rail. As a result, both the 
        railroad and petroleum industries have renewed their commitment 
        to enhancing emergency response communications and training.
  --On February 10, 2014, PHMSA met with emergency response 
        stakeholders and industry groups to discuss training and 
        awareness related to the transport of Bakken crude.
  --On February 25, 2014, the Department issues an Emergency Order (EO) 
        requiring stricter standards for testing and classification of 
        crude oil transported by rail.
  --PHMSA conducted a Multi-Agency Strike Force Operation in the Bakken 
        region in February involving five Federal agencies and one 
        State agency: PHMSA, Federal Motor Carrier Safety 
        Administration (FMCSA), FRA, U.S. DHS Customs & Border 
        Protection, and the North Dakota Highway Patrol Commercial 
        Motor Vehicle Enforcement.
  --On May 7, 2014 the Department issued an Emergency Order requiring 
        railroad carriers to inform first responders and notify State 
        Emergency Response Commissions about crude oil being 
        transported through their towns and communities.
  --On May 7, 2014, PHMSA and FRA issued a Safety Advisory requesting 
        companies to take steps to avoid the use of DOT 111 tank cars 
        when transporting Bakken crude oil.
  --Annually, FRA and PHMSA both provide grants that support community 
        awareness and emergency response. For example, since 1993, 
        PHMSA's Hazardous Materials Grant Program has provided funding 
        to ensure local emergency responders are prepared and trained 
        effectively to respond to and mitigate the consequences of 
        hazmat transportation incidents.
  --DOT has gotten commitment from industry to address safety issues. 
        For example, the American Petroleum Institute, American 
        Chemistry Council, and the railroad industry committed to 
        developing an inventory of emergency response resources along 
        routes over which trains transporting large amounts of crude 
        oil operate. Relevant information from the inventory will be 
        made available to appropriate emergency responders. 
        Furthermore, the railroad industry has committed approximately 
        $5 million to develop and provide a hazardous material 
        transportation training curriculum applicable to petroleum 
        crude oil transport for emergency responders. The industry will 
        also fund a portion of training costs through the end of 2014.
                                 ______
                                 
            Questions Submitted to Hon. Deborah A.P. Hersman
              Questions Submitted by Senator Patty Murray
    Question. What does the Federal Railroad Administration need to do 
to ensure that freight rail has an equivalent level of preparedness to 
the pipeline and maritime industries?
    Answer. In response to the Lac-Megantic, Quebec accident, for which 
the NTSB is providing technical assistance to the Transportation Safety 
Board (TSB) of Canada, we issued companion recommendations to address 
emergency response planning and to ensure the same level of response is 
available in the rail industry as is in the pipeline and marine 
industries. The Lac-Megantic accident shows that railroad accidents 
involving crude oil have a potential for disastrous consequences and 
environmental contamination equal to that of the worst on-shore 
pipeline accidents. Although railroad accidents involving large numbers 
of crude oil tank cars can have similar outcomes, oil spill response 
planning requirements for rail transportation of oil/petroleum products 
are practically nonexistent compared with other modes of 
transportation. Current regulations do not require railroads 
transporting crude oil in multiple tank cars to develop comprehensive 
spill response plans and have resources on standby for response to 
worst-case discharges. Although simple plans must be developed, the 
plans are not reviewed to evaluate the capability of rail carriers to 
respond to and mitigate discharges.
    In the preamble to the June 17, 1996, final rule,\1\ the Research 
and Special Programs Administration (RSPA) \2\ stated its belief that 
42,000 gallons in a single packaging is an appropriate and reasonable 
liquid quantity for a finding that a release would cause substantial 
harm to the environment, and thus should be the threshold for 
comprehensive planning. However, RSPA noted that on the basis of 
available information, no rail carrier was transporting oil in a 
quantity greater than 42,000 gallons in tank cars. During 1996, when 
the rulemaking was being considered, there were only 67 tank cars 
listed in the AAR UMLER \3\ file with a capacity equal to or greater 
than 42,000 gallons. Only six of these cars were being used to 
transport oil or petroleum products.
---------------------------------------------------------------------------
    \1\ Federal Register 61, no. 117 (June 17, 1996): 30533.
    \2\ RSPA was abolished by act of November 30, 2004 (118 Stat. 2424-
2426), and certain duties were transferred to both PHMSA and the 
Administrator of the Research and Innovative Technology Administration, 
DOT.
    \3\ UMLER refers to the Universal Machine Language Equipment 
Register, which is a file of vital statistics for each rail car in 
service.
---------------------------------------------------------------------------
    The NTSB finds that as currently written, the regulation 
circumvents the need for railroads to comply with spill response 
planning mandates of the Federal Clean Water Act. Although the DOT 
42,000-gallon threshold for comprehensive response plan development is 
equivalent to an unrelated threshold contained in a spill prevention, 
control, and countermeasures rule administered by the U.S. 
Environmental Protection Agency for nontransportation related oil 
storage facilities,\4\ the DOT regulation is rendered ineffective 
because of its lack of applicability to any real-world transportation 
scenario. By limiting the comprehensive planning threshold for a single 
tank size that is greater than any currently in use, spill-planning 
regulations do not take into account the potential of a derailment of 
large numbers of 30,000-gallon tank cars, such as in Lac-Megantic where 
60 tank cars together released about 1.6 million gallons of crude oil.
---------------------------------------------------------------------------
    \4\ Under 40 CFR part 112, if the facility transfers oil over water 
to or from vessels and has a total oil storage capacity greater than or 
equal to 42,000 gallons it could, because of its location, reasonably 
be expected to cause substantial harm to the environment by discharging 
oil on the navigable waters or adjoining shorelines.
---------------------------------------------------------------------------
    RSPA stated further that the risk to the marine environment posed 
by oil in transport is proportional to the quantity of oil that could 
be discharged in an accident, and when the rule was developed 17 years 
ago, it was based on the relatively few petroleum shipments by tank car 
that were not being assembled as unit trains. The NTSB believes that 
because conditions have significantly changed with the recent massive 
growth in crude oil transportation, the regulations are no longer 
sufficient to mitigate the risks of petroleum product releases in 
accidents. Although no one tank car meets the current threshold for 
comprehensive spill planning, the Lac-Megantic accident and the well-
known poor lading retention performance history of DOT-111 tank cars 
have demonstrated that the worst-case release potential of these unit 
trains, in many cases greater than 2 million gallons, must be 
considered in the oil and hazardous materials spill planning process.
    U.S. Coast Guard regulations for marine tank vessels require spill 
response planning to address a worst-case discharge, which is defined 
as the entire cargo on the vessel. Planning to respond to maximum 
potential releases for trains transporting crude oil, many of which are 
configured in unit trains as ``virtual pipelines'' of tank cars, also 
must take into account the entire quantity of lading.
    Question. What are the differences between the standards, 
regulations and emergency response requirements for the transportation 
of crude by rail in Canada and the United States?
    Answer. Many of the standards, regulations and emergency response 
requirements in Canada are similar. As a result of the Lac-Megantic 
accident, the NTSB and TSB Canada issued companion recommendations to 
address the same outstanding safety issues: emergency response 
planning, correct classification of hazardous materials, and route 
evaluation and planning. We are hopeful that these recommendations will 
be implemented quickly to provide one level of safety for these trains 
that routinely travel between the United States and Canada.
    In April 2014, Transport Canada announced that it would take action 
to phase out the DOT-111 tank cars by May 1, 2017. The U.S. Department 
of Transportation has not issued a companion requirement, but the NTSB 
has highlighted safety shortfalls of these cars for several years.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
    Question. Chairman Hersman, in your testimony you mentioned that 
``some railroads'' will meet the Positive Train Control (PTC) deadline. 
Can you please clarify exactly which railroads will have fully 
interoperable PTC installed on their entire systems by December 31, 
2015? Also, can you explain what data NTSB used in order to reach this 
conclusion?
    Answer. The railroads that have informed the NTSB that they will 
meet the December 31, 2015 deadline are MetroLink, Alaska Railroad, and 
Amtrak. We have received this information directly from these 
operators. The Federal Railroad Administration will be responsible for 
verifying compliance with this law.

                         CONCLUSION OF HEARINGS

    Senator Murray. And this now concludes the last hearing of 
this subcommittee that we will hold this year. Thank you very 
much.
    [Whereupon, at 12:10 p.m., Wednesday, April 9, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
